<html>
<title> - PROPOSED FISCAL YEAR 2006 BUDGET REQUEST FOR THE FOREST SERVICE</title>
<body><pre>[Senate Hearing 109-29]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 109-29
 
    PROPOSED FISCAL YEAR 2006 BUDGET REQUEST FOR THE FOREST SERVICE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   TO

RECEIVE TESTIMONY ON THE PRESIDENT'S BUDGET FOR FY 2006 FOR THE FOREST 
                                SERVICE

                               __________

                             MARCH 2, 2005


                       Printed for the use of the
               Committee on Energy and Natural Resources




                 U.S. GOVERNMENT PRINTING OFFICE

21-331                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail 
Stop SSOP, Washington, DC 20402-0001










               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               JON S. CORZINE, New Jersey
GORDON SMITH, Oregon                 KEN SALAZAR, Colorado
JIM BUNNING, Kentucky

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
                  Bob Simon, Democratic Staff Director
                  Sam Fowler, Democratic Chief Counsel
                Frank Gladics, Professional Staff Member
                    Scott Miller, Democratic Counsel














                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     3
Bosworth, Dale N., Chief, Forest Service, Department of 
  Agriculture....................................................    12
Bunning, Hon. Jim, U.S. Senator from Kentucky....................     2
Craig, Hon. Larry E., U.S. Senator from Idaho....................     1
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     2
Murkowski, Hon. Lisa, U.S. Senator from Alaska...................     5
Rey, Mark, Under Secretary, Natural Resources and Environment, 
  Department of Agriculture......................................     8
Salazar, Hon. Ken, U.S. Senator from Colorado....................    21
Smith, Hon. Gordon, U.S. Senator from Oregon.....................     7
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     4
Wyden, Hon. Ron, U.S. Senator from Oregon........................     4

                                APPENDIX

Responses to additional questions................................    47












    PROPOSED FISCAL YEAR 2006 BUDGET REQUEST FOR THE FOREST SERVICE

                              ----------                              


                        WEDNESDAY, MARCH 2, 2005

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:04 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Pete V. 
Domenici, chairman, presiding.

           OPENING STATEMENT OF HON. LARRY E. CRAIG, 
                    U.S. SENATOR FROM IDAHO

    Senator Craig. Good morning, everyone. Let me ask that we 
come to order.
    I welcome to the committee certainly all of our members to 
hear the Forest Service's budget request for 2006. And I 
certainly want to recognize Secretary Mark Rey and the Chief of 
the Forest Service, Dale Bosworth.
    Dale, congratulations. I see his facial expression hasn't 
quite changed yet. Dale will receive this May at the University 
of Idaho's commencement the highest honor that our State land 
grant university can bestow on one of its alumni and that is 
the Hall of Fame.
    I am mighty proud of that and I know you are, too. 
Congratulations. We are proud of your heritage there and the 
role that our School of Forestry has been able to play in the 
leadership of the Forest Service.
    Rather than undertake a lengthy opening statement, I would 
like to note that this is a very lean budget request. It 
reflects the President's desire to reduce the budget deficit 
and like many other agencies, the Forest Service will be 
impacted.
    I will be asking a number of questions as will all of us 
and submitting questions related to the specifics of the budget 
and the budget area and the legislative initiatives it 
proposes.
    Before I ask other members for opening statements, I would 
like to make a few observations.
    The budget requests and proposed outputs do not reflect the 
strategic focus listed in the budget proposal. In some 
instances, funding and outputs are far below previous year 
expenditures, while other program requests and outputs are 
above last year's levels, which suggest a different emphasis 
may exist.
    In the face of the agency's request for budget reductions 
for facilities, maintenance, trails, and road maintenance, I 
continue to be concerned with the Forest Service's request for 
land acquisition funding.
    There are other issues I am sure that we will discuss that 
are regional or parochial in nature as they relate to the 
budget and the budget impact upon all of our States. I will 
address those in my questions to you, Chief, and to you, Mr. 
Secretary.
    I am troubled in large part by the increasing demands that 
are placed upon the Forest Service, the obvious need to fund 
the necessary training programs for State and local fire 
assistance and State and Private Forestry programs and our 
Wildland Fire Management programs.
    Those are continuing to be an issue in the Great Basin West 
and especially in Idaho. We are the driest in recorded water 
history. And unless we get a wet spring, I think our forests 
will be increasingly vulnerable, as will be true in some of our 
adjoining States.
    So there are a great many issues that we will want to 
discuss with you at this budget hearing.
    With that, let me turn to the ranking member of the 
committee, Senator Bingaman.
    Senator.
    [The prepared statements of Senators Bunning and Domenici 
follow:]
   Prepared Statement of Hon. Jim Bunning, U.S. Senator From Kentucky
    Today's hearing on the fiscal year 2006 budget for the Department 
of the Interior is important for the protection of our country's 
natural resources. I believe that funding conservation and management 
of those resources will help benefit communities today and preserve our 
cultural heritage for future generations.
    One particularly important program for the State of Kentucky is the 
Abandoned Mine Land (AML) program. Coal mining has been important to 
Kentucky's economy and has helped keep Kentucky's electricity rates the 
lowest in the Nation. AML has helped restore lands and waters impacted 
by mining but were left inadequately restored. Last year we passed a 
temporary reauthorization of the AML program with the hope of 
addressing the details and goals of the program more thoroughly this 
year. I will be interested to hear what your thoughts are for the AML 
program.
    I know that Congress will have the tough job of practicing some 
fiscal restraint. Although fiscal year 2006 will be a challenging one, 
I am confident that we can practice restraint while protecting our 
Nation's resources.
    I thank Under Secretary Rey and Chief Bosworth and their staff for 
their hard work and their willingness to appear before us today to 
explain the Forest Service's budget in detail.
    Thank you, Mr. Chairman.
                                 ______
                                 
       Prepared Statement of Hon. Pete V. Domenici, U.S. Senator 
                            From New Mexico
    I want to welcome Committee Members to this hearing on the Forest 
Service FY 2006 Budget request.
    And I want to welcome Undersecretary Mark Rey and Chief of the 
Forest Service, Dale Bosworth to the Committee this morning to help us 
understand the proposals made by the Administration in this budget 
request.
    Rather than undertake a lengthy opening statement, I would note 
that this is a very lean budget request. It reflects the President's 
desire to reduce the budget deficit and like many other agencies, the 
Forest Service will be impacted.
    I will be asking a number of questions and submitting other 
questions related to the specifics of this budget request and the 
legislative initiatives it proposes.
    Before I ask other Members for their opening statements, I would 
like to make a few observations.

  <bullet> The budget request and proposed outputs do not reflect the 
        strategic focus listed in the budget proposal. In some 
        instances funding and outputs are far below previous years' 
        expenditures, while other program requests and outputs are 
        above last year's levels, which suggests a different emphasis 
        may exist.
  <bullet> In the face of the agency's requests for budget reductions 
        for facilities, maintenance, trails, and roads maintenance, I 
        continue to be concerned with the Forest Service's request for 
        land acquisition funding.
  <bullet> On Valles Caldera, I am getting frustrated with the game the 
        Administration appears to be playing on funding this program. 
        We all know how important this transitional funding is and I 
        recall you telling me last year that you would do your best to 
        include the needed funding in this year's budget request. Yet 
        once again it is not requested.
  <bullet> I am troubled by the time you plan to take to complete 
        forest plan revisions in New Mexico. There are twenty five 
        other forests, in other regions, that have younger plans than 
        the forests in our state, yet they are scheduled to be 
        completed prior to our National Forests in New Mexico.
  <bullet> Finally, the cuts to State and local fire assistance in the 
        State and Private programs and in the Wildland Fire Management 
        programs greatly concern me.

    I want to remind everyone that we will be accepting additional 
testimony on this hearing for the next ten days and I expect to be 
submitting all supplemental questions to the agency tomorrow.

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Bingaman. Thank you very much, Mr. Chairman. Thank 
you all for being here. I appreciate it.
    I thought he was going to congratulate you on the hundred 
years' anniversary of the Forest Service, which we also think 
is a very major milestone, and congratulations on that.
    Let me mention two or three things that I hope you will be 
able to address in your testimony or in the questions.
    One is the issue that we have dealt with, I think every 
year that I have been here involved with the Forest Service 
budget, and that is the whole issue of fire borrowing, as I 
think we refer to it.
    Last year we appropriated $400 million in supplemental 
funds to the Forest Service to pay back accounts that were 
borrowed from in the past and to keep some of that money in 
reserve for the future.
    I would be interested in any status reports you could give 
us on whether or not we are in the circumstance where we will 
have to look at fire borrowing again or if the problem is 
behind us. It has been an ongoing problem and one I think we 
need to understand better.
    Obviously another issue is the whole issue of deteriorating 
roads in the national forests. As I understand it, road 
maintenance needs very dramatically out-distance the budget or 
any plans for the budget. And I would be interested in knowing 
how you see that.
    There is a cut proposed, a 16 percent cut from last year, 
and that does not include a proposed 30 percent cut in the 
deferred maintenance and infrastructure accounts, which is also 
used to maintain roads. So I would be interested in that.
    A third issue, and this relates to the national fire plan, 
which we all have given speeches about and talked about for 
some time now, includes several things that appear to me to 
have been largely forgotten about in the budgeting. And that is 
rehabilitation, community assistance and monitoring.
    And with regard to the rehabilitation account, the proposal 
in the budget is for an 84 percent cut from last year. There is 
a 26 percent cut in state and private forestry, a 54 percent 
cut in cooperative fire assistance, a 30 percent cut in forest 
health management, a 13 percent cut in cooperative forestry and 
elimination of the Economic Action Program.
    With regard to monitoring the proposal is a decrease of 18 
percent from the fiscal year 2001 levels. So that is obviously 
a major concern as well. I will have some questions when we get 
a chance to ask questions.
    Thank you again for being here.
    Senator Craig. Senator Thomas.

         STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR 
                          FROM WYOMING

    Senator Thomas. Thank you. I generally wait. I guess we all 
have some interest in the time it takes for forest plans to be 
done and whether this budget is going to assist in that area, 
the whole question of endangered species and how that is being 
used as a land management tool. It seems as if it is.
    Obviously, we are interested in multiple use and how that 
fits together, as well as and wilderness study areas that are 
supposed to be study areas and not wilderness--why that is the 
case.
    So a number of things, but I will wait until the question 
period, Mr. Chairman.
    Senator Craig. Thank you very much, Senator.
    Senator Wyden.

           STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                          FROM OREGON

    Senator Wyden. Thank you, Mr. Chairman. I will be brief. I 
was going to go through exactly the same numbers that Senator 
Bingaman mentioned in his address and I want to associate 
myself with his remarks.
    I would just say to all of you at the Forest Service, what 
you have done is redefined the concept of thinning because that 
is essentially what your budget is synonymous with. On all of 
the key areas where members of the U.S. Senate have tried to 
reach and work in good faith with the Forest Service, you all 
are not willing to meet us halfway.
    As Senator Bingaman touched on, we give these big speeches 
about working with the communities and a fresh approach with 
respect to dealing with fire in the long term. Senator Craig 
and I just put hours and hours into the Healthy Forest 
legislation, and this budget basically takes away the tools to 
do it on the ground. I mean, that is what it really means.
    When you strip down Senator Bingaman's budget cuts that he 
outlined area by area, what it means is these local communities 
across the country are not going to have the tools to do what 
was in the bipartisan Healthy Forest legislation. I look 
forward to your giving us some assessment on how it might be 
otherwise.
    It is pretty interesting. The Forest Service fiscal year 
2006 budget press release is entitled, ``President Bush 
reinforces commitment to cooperative conservation in the 2006 
budget.'' Yet in all of these cooperative programs, which last 
time I looked is what the President is talking about in his 
press release, there are big cuts and they are all over the 
programs.
    In total between the SPF and the WFM account, State Fire 
Assistance is proposed for a $22.8 million cut. That is 31 
percent. Forest Health Management Cooperative Lands proposed 
for a $30.6 million, 53 percent cut.
    This is not keeping faith with local communities. I am sure 
we are going to hear about how there is some sort of budgetary 
sleight of hand that is going to let us avoid duplication and 
the like. I am telling you, that is not what we are hearing 
from folks on the ground.
    So I look forward to working with you, Mr. Chairman, and 
Senator Bingaman so that we can do what Congress set out to do 
in a bipartisan way for legislation that got more than 80 votes 
in the U.S. Senate.
    Senator Craig and I have often noted that we were not 
getting any forestry bills to the floor of the senate until the 
``County Payments Bill'' and the ``Forest Health Bill.'' We 
worked in a bipartisan way. We are going to continue to do it.
    It is not going to be possible to do it if we have these 
budgets that take away the tools to carry out the kind of 
legislation that gets 80 votes in the U.S. Senate and 
constitutes a real breakthrough for the West.
    So, Mr. Chairman, I look forward to working with you and 
Senator Bingaman and Senator Thomas here. All our colleagues 
who put in all this time, I am anxious to work with you.
    Senator Craig. Thank you, Ron.
    We have been joined by two other of our colleagues, Senator 
Murkowski and Senator Smith.
    Lisa, do you have any opening comments you would like to 
make?

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you. Thank you, Mr. Chairman. And 
good morning, Mr. Bosworth, Mr. Rey.
    I do have an opening statement that I would like to submit 
in full for the record. But just very, very briefly, there is a 
pretty good quote, I think, from former President Teddy 
Roosevelt, that I think we ought to be reminded of when we 
think of our forests and forest management.
    He said, ``First and foremost, you can never afford to 
forget for a moment what is the object of our forest policy. 
That is not to preserve the forests because they are beautiful, 
though that is good in itself, nor because they are refuges for 
the wild creatures of the wilderness, though that, too, is good 
in itself; but the primary objective of our forest policy, as 
the land policy of the United States, is the making of 
prosperous homes.''
    And when you think about it, there is a pretty fundamental 
difference between a national park and a national forest. When 
we think about the multiple-use policy--you know, in Alaska, I 
think we certainly appreciate that we would like to get back to 
a policy of multiple use. It is not only the recreation, and it 
is not only the ``look but do not touch,'' but also there is a 
principle that requires that our forest resources be managed 
not only for the ecosystem and the habitat values but for 
tourism, for recreation, and also for the harvesting of timber.
    So I hope that we will be able to refocus on this pretty 
fundamental organic principle of multiple use. I think it is a 
principle that is often lost in some of the politicized debate 
that goes on.
    So, Mr. Chairman, I look forward to the opportunity this 
morning to be able to ask questions of Mr. Bosworth and Mr. Rey 
as we focus on those principles of how we better achieve a true 
multiple-use policy for our national forests.
    Thank you.
    [The prepared statement of Senator Murkowski follows:]
  Prepared Statement of Hon. Lisa Murkowski, U.S. Senator From Alaska
    Good morning, Mr. Chairman. It is a pleasure to join you in 
welcoming Mr. Rey and Chief Bosworth back to the committee. It is no 
understatement to say that the Forest Service is one powerful presence 
in my State of Alaska.
    The Forest Service manages some 22 million acres in Southeast and 
South Central Alaska. The Tongass National Forest stretches the 500 
mile length of the Southeast Alaska panhandle and covers more than 80% 
of the land. The Chugach National Forest begins just 50 miles south of 
Anchorage and stretches some 200 miles across Prince William Sound, the 
Copper River Delta and the Kenai Peninsula.
    I am proud to join with Mr. Rey, Chief Bosworth and Forest Service 
employees across the nation in observing the 100th anniversary of the 
Forest Service. The Forest Service was founded on the principle of 
multiple use.
    The Alaska Forest Association is fond of this 1903 quote which is 
attributed to President Theodore Roosevelt and appears on their 
website:

          ``First and foremost,'' President Roosevelt explained, ``you 
        can never afford to forget for a moment what is the object of 
        our forest policy. That is not to preserve the forests because 
        they are beautiful, though that is good in itself, nor because 
        they are refuges for the wild creatures of the wilderness, 
        though that too is good in itself; but the primary object of 
        our forest policy, as the land policy of the United States, is 
        the making of prosperous homes.''

    There is a fundamental difference between a National Park and a 
National Forest. The governing principle in our National Parks, 
particularly those in the Lower 48 that are not subject to the 
management principles in the Alaska National Interest Lands 
Conservation Act is ``look but don't touch.''
    Multiple use does not mean ``look but don't touch.'' The principle 
requires that our forest resources be managed not only for ecosystem 
and habitat values, but also for tourism, recreation and yes, the 
harvest of timber to promote economic development.
    During this centennial year I would hope that we refocus on this 
fundamental, organic principle of multiple use. It is a principle too 
often lost in the highly politicized debates that in my view have 
hijacked our forest policy with the goal of managing our National 
Forests in the same way we manage our National Parks. Multiple use 
simply does not mean turning our National Forests into wilderness 
areas.
    The people of Alaska and visitors to our State enjoy our forest 
resources for their natural beauty and recreational opportunities. Our 
national forests are home to diverse species of fish and game which 
Alaskans depend upon for their subsistence foods.
    But we must also not forget that Alaska's national forest resources 
have historically provided the economic lifeblood for numerous 
Southeast Alaska communities. This too is part of President Roosevelt's 
legacy.
    I am sad to observe that our Nation's recent lack of commitment to 
multiple use principles in the Tongass National Forest has wreaked 
havoc on the economy of Southeast Alaska and brought pain to numerous 
small businesses.
    There may be some in this room who would say that Southeast 
Alaska's forest products industry is a relic of the past and that the 
family owned businesses that own the mills and construct the roads--
should be put out of their misery.
    Like most Alaskans, I respectfully reject this notion. I would like 
to think that the best days of the Alaska forest products industry are 
yet to come.
    I applaud the work of the good people at the Ketchikan Wood 
Technology Center and the Wood Utilization Center in Sitka who are 
working to develop new markets for Alaska timber.
    And I applaud the resilience of Ted Falconer, an entrepreneur from 
Washington state, who has withstood the efforts of a national 
environmental organization to harass into abandoning plans to reopen a 
veneer mill in Ketchikan. According to the Associated Press, 153 
unsolicited letters were faxed to Mr. Falconer from the offices of the 
Natural Resources Defense Council, jamming his fax machine.
    But most of all, I appreciate the resilience of our family owned 
businesses that simply refuse to say die.
    I have had an opportunity to read the prepared testimony and 
appreciate Chief Bosworth's observation that the United States consumes 
much more wood than it produces and must import wood from other 
countries. The same is true for Alaska. A 1998 marketing study shows an 
annual lumber market in Alaska of approximately 100 million board 
feet--most of which comes from Canada and the Lower 48 states. We also 
import engineered wood products, manufactured wood products and 
preservative treated wood.
    Alaska is prepared to accept the challenge of supplying its own 
timber needs. The mills that struggle to stay open have an operating 
capacity of about 200 million board feet. Yet today the mills have only 
about 50-70 million board feet of timber available.
    The 1997 Tongass Land Management Plan provides that a maximum of 
267 million board feet of timber can be harvested from the Tongass. Yet 
the Alaska Forest Association is deeply concerned that the Forest 
Service continues to plan for only 100-150 million board feet annually 
and is able to deliver about 50-70 million board feet.
    I'm going to stop here but let me close on this point. The Alaska 
Forest Products industry is not going away and I want you to know that 
this Senator Murkowski--like the last one--is committed to seeing it 
flourish.
    I look forward to working with Mr. Rey, Chief Bosworth and the 
devoted Forest Service employees in Region 10 who are truly committed 
to multiple use informed by sound science and sound economics toward 
this end.

    Senator Craig. Senator, thank you.
    Senator Smith.

         STATEMENT OF HON. GORDON SMITH, U.S. SENATOR 
                          FROM OREGON

    Senator Smith. Thank you, Mr. Chairman. Gentlemen, welcome. 
Good to see you. I want to join with other colleagues who no 
doubt have noted that it is the hundredth anniversary of the 
Forest Service.
    Certainly in those hundred years, there has been no way to 
get out of the politics, but you certainly made an enormous 
contribution to our Nation and in our forests. Despite fire and 
floods and every other kind of catastrophe, I think it is 
appropriate to occasionally thank you for your service.
    I want to suggest also, though, that I am pleased to see a 
proposed increase in funding for forest products in your line 
item, but I am a little disappointed that there is not more 
commitment to fully implement the Clinton Forest Health Plan 
and also, as I understand it, President Bush's Healthy Forest 
Initiative.
    As I understand, the proposal for the Pacific Northwest 
Region would receive less than half the timber budget it 
received during the Clinton administration. I hope to clarify 
that point as we get into this hearing.
    Welcome, gentlemen. And, again, thank you. We will take 
your budget and see if we can make it better.
    Senator Craig. Thank you very much.
    Now let me turn to our panel, the Chief of the Forest 
Service, and Under Secretary Rey. I will let you proceed in the 
order that you choose. We do have a vote around 10:30. We will 
want to take your testimony prior to that and attempt to get 
into questions prior to that.
    The chairman may be here by then and we will phase in and 
out to keep the questions going or we will go into a brief 
recess for those votes.
    Please proceed, gentlemen.

 STATEMENT OF MARK REY, UNDER SECRETARY FOR NATURAL RESOURCES 
           AND ENVIRONMENT, DEPARTMENT OF AGRICULTURE

    Mr. Rey. Mr. Chairman, members of the committee, thank you 
for the opportunity to discuss the President's fiscal year 2006 
budget for the Forest Service. I am pleased to join Chief 
Bosworth in appearing before you today.
    As many of you indicated, this year marks the hundredth 
anniversary of the creation of the Forest Service and as a 
result of the agency's actions over the past hundred years of 
multiple use management, the decline in forest land that was 
occurring rapidly at the turn of the last century is 
stabilized; forest land has increased in some areas of the 
Nation.
    Areas destroyed by wildfire have declined by 90 percent. 
Forest growth is exceeding forest harvest. Tens of millions of 
acres of cut-over land have been reforested and much of these 
areas have again been harvested and reforested.
    Finally, populations of important wildlife species that 
were near extinction in the 1900's have been restored from the 
brink of extinction.
    So the past hundred years has shown a considerable amount 
of accomplishment and pursuit of conservation objectives on the 
National Forest System. Let me tell you about some of the 
issues that we will be focusing on the next hundred years, most 
prominent of which is the Healthy Forest Initiative.
    The Healthy Forests Initiative and the Healthy Forests 
Restoration Act provides emphasis and new authorities necessary 
to protect communities and natural resources from the risk of 
catastrophic fire.
    The fiscal year 2006 budget for the Forest Service and the 
Department of the Interior land management agencies includes 
about $876 million* to continue the implementation of the 
President's Healthy Forests Initiative. That is an increase of 
$57 million over last year and significantly in excess of the 
authorization levels provided in Title 1 of the bill.
---------------------------------------------------------------------------
    * NOTE FROM THE DEPARTMENT OF AGRICULTURE: We believe that Under 
Secretary of Agriculture Mark Rey meant to say $867 million.
---------------------------------------------------------------------------
    As Senators Wyden and Bingaman noted, the mix of emphasis 
is more toward Federal rather than non-Federal land. We believe 
that is because there are other programs, which we can talk 
about in our questioning and answering period, that deal with 
non-Federal lands and non-Federal initiatives, in some cases 
with superior delivery systems.
    In fiscal year 2006, the Forest Service and the Department 
of the Interior will reduce hazardous fuels on 4.3 million 
acres, an increase of nearly 300,000 acres from fiscal year 
2005, which was itself an all-time record and over four times 
the average annual acres treated during the 1990's.
    The Forest Service will focus two-thirds of its treatment 
in the wildland-urban interface to protect communities during 
fiscal year 2006. While the effective treatment of hazardous 
fuels provides the long-term protection for communities and 
natural resources from the threat of catastrophic wildfire, the 
agency must also continue to address fire preparedness.
    The Forest Service and the Department of the Interior will 
maintain sufficient readiness resources to suppress more than 
98 percent of wildfires on initial attack. As a result of the 
reengineering of the fleet of aviation assets in advance of the 
fiscal year 2004 fire season, the Forest Service and the 
Department of the Interior exceeded the success rate in 
suppressing fires on initial attack of previous years.
    As a basis of comparison, in fiscal year 2003, we were 
successful in suppressing on initial attack 98.3 percent of all 
ignitions. During fiscal year 2004, we succeeded in suppressing 
99 percent of all ignitions on initial attack. That resulted in 
70 fewer escapements with an average suppression savings of 
about $22 million.
    Last year, we did not need to borrow from operating 
accounts for fire fighting purposes as a result of changes that 
you made in the budget process. If those changes continue on 
into this year and next, I would anticipate that we would not 
have to borrow this year or next year as well.
    Going beyond the Healthy Forest Initiative and fire 
fighting efforts in response to concerns about agency 
accountability and management, the Forest Service has been 
diligently working to improve its financial and program 
management. In response to Senator Thomas's question, the 
agency's implementation of a new planning rule is expected to 
significantly reduce both the time and cost to amend or revise 
land management plans.
    Another important efficiency initiative contained in the 
President's budget will enable the agency to more effectively 
manage its facilities. Presently the agency has over 40,000 
facilities in its inventory, substantially more than it needs 
and averaging substantially more than one building per employee 
of the Forest Service.
    Legislation proposed as part of the budget will authorize 
the sale of unneeded facilities for fair market value and the 
use of sale proceeds to address the maintenance backlog.
    In addition, the legislation would provide for the 
establishment of a working capital fund for maintenance that 
will assess programs that use facilities for the maintenance of 
those facilities.
    With that legislation, I believe that we can get a jump on 
some of the maintenance backlog that infests the facilities and 
other assets of the National Forest System. I look forward to 
working with the committee in enactment of that legislation.
    In response to the President's management agenda, the 
Forest Service is becoming more efficient in how it performs 
administrative support. By the end of 2005, the agency will 
have completed its implementation of a new information 
technology support organization and the centralization of its 
financial management systems.
    In fiscal year 2006, the agency will centralize its human 
resource management activities. All of the activities will be 
headquartered in a service center in Albuquerque, New Mexico.
    Combined, these three efforts will reduce overhead expenses 
by $91 million annually, allowing those savings to be 
reprogrammed into on-the-ground land management activities.
    In recognition of the agency's commitment to sustained and 
effective financial management, I am very pleased that earlier 
this year, the Government Accountability Office, the GAO, 
removed the Forest Service from its high-risk list.
    The GAO's action was a direct result of three successive 
clean audit opinions and the demonstrated commitment of the 
administration to implement organizational change that will 
ensure the Forest Service's ability to sustain future clean 
audits.
    I look forward to working with the Congress to enact the 
President's fiscal year 2006 budget. We would be pleased to 
answer any questions after Chief Bosworth speaks.
    [The prepared statement of Mr. Rey follows:]
 Prepared Statement of Mark Rey, Under Secretary for Natural Resources 
               and Environment, Department of Agriculture
    Mr. Chairman, Senator Dorgan, and members of the Subcommittee, 
thank you for this opportunity to discuss the President's Fiscal Year 
(FY) 2006 Budget for the Forest Service. I am pleased to join Chief 
Bosworth in appearing before you today. In my testimony, I will discuss 
two main issues. First, I will focus on priorities for the Forest 
Service as it moves into its second century of fulfilling its mission, 
including the role that the President's Healthy Forests Initiative 
(HFI) holds in that mission. Second, I will discuss the reforms and 
efficiency actions the agency is employing to deliver its mission more 
efficiently.
    As we move through the process of enacting the FY 2006 Budget, all 
of us in the Executive Branch, like all of you in Congress, are well 
aware of the challenges faced in funding the priorities of the nation. 
The President's proposed budget for the Forest Service addresses key 
priorities, makes critical tradeoffs, and demands efficiency in 
delivery of programs. I look forward to working with you to enact the 
President's budget for the Forest Service.
                moving forward--a new century of service
    As Chief Bosworth will also discuss, this year marks the 100th 
anniversary of the Forest Service. To give you a sense of how the 
Forest Service plans to move forward, I will briefly review the mission 
adopted by the Forest Service in 1905 when it was formed, and how its 
response to the national issues in the coming century are, for the most 
part, similar.
    The 1905 mandate given the Forest Service involved responding to 
the degradation of watersheds and the substantial loss of forests and 
wildlife. The agency began taking important actions to conserve 
America's resources, including the closing of public domain lands and 
reserving the remaining public lands for protection and management; 
promoting the conservation and productivity of forests and grasslands 
regardless of ownership; acquiring scientific knowledge on natural 
resources management; improving management and productivity of all 
agricultural lands and forests; and adopting and enforcing wildlife 
conservation laws. As a result of the agency's actions over the past 
100 years of multiple-use management, the decline in forest land has 
stabilized and increased in some areas of the nation. Areas destroyed 
by wildfire have declined by 90 percent. Forest growth is exceeding 
harvest. Tens of millions of acres of cutover lands have been 
reforested and much of these areas have again been harvested and 
reforested. Finally, populations of important wildlife species have 
been restored from the brink of extinction.
    In the coming century, the Forest Service must focus on restoring 
the health of watersheds, increasing recreational opportunities, 
providing clean water, establishing healthy wildlife and fish 
populations, and protecting communities and resources from the risk of 
catastrophic wildfire. The agency must accomplish this while providing 
minerals and forest products to meet the increasing demands of the 
nation. The President's emphasis on healthy forests makes sustainable 
production of products an integral aspect of improving forest health.
                       healthy forests initiative
    The HFI and the Healthy Forests Restoration Act provides emphasis 
and new authorities necessary to protect communities and natural 
resources from the risk of catastrophic fire. The FY 2006 budget for 
the Forest Service and DOI includes about $867 million to continue 
implementation of the President's HFI, which is an increase of $57 
million from last year. This amount includes a request for $492 million 
in hazardous fuels funding and the planned expenditure of an additional 
$375 million in other habitat management activities that will reduce 
the risk of wildfire. In FY 2006, the Forest Service and the Department 
of the Interior (DOI) will reduce hazardous fuels on 4.3 million acres, 
an increase of nearly 300,000 acres from FY 2005, itself an all-time 
record.
    The Forest Service will focus two thirds of its treatment in the 
wildland urban interface (WUI) to protect communities. Protecting 
communities from the risk of wildfire can be accomplished by activities 
that result in the production of forest products and the protection and 
enhancement of watersheds and wildlife. For example, the Forest Service 
has worked closely with communities to complete over 600 Community 
Wildfire Protection Plans that identify the local strategies necessary 
to protect communities and promote multiple-use management activities.
    The efficient expenditure of federal funds requires the agency to 
develop appropriate incentives that will make the use of forest 
products an integral aspect of the hazardous fuels reduction. The 
Forest Service will make maximum use of the stewardship contracting 
authority and the new authorities provided by the Healthy Forest 
Restoration Act to make treatment of hazardous fuels more efficient. In 
furthering this objective, the President's Budget includes a $10 
million investment to improve facilities at the Forest Product 
Laboratory (FPL) in Madison, Wisconsin that will increase research in 
creating new products from forest biomass.
                    efficient response to wildfires
    While the effective treatment of hazardous fuels provides the long-
term protection of communities and natural resources from the threat of 
catastrophic wildfire, the agency must also continue to address fire 
preparedness. The Forest Service and DOI will maintain sufficient 
readiness resources to suppress more than 98% of wildfires on initial 
attack. This represents the same approximate level of readiness that 
has occurred over the past several years. Being prepared to manage and 
suppress wildfire requires continued emphasis on improved and efficient 
use of equipment and personnel. As a result of reengineering the fleet 
of aviation assets in advance of the FY 2004 fire season, the Forest 
Service and DOI maintained the success rate in suppressing fires on 
initial attack. Increased emphasis on the using helicopters instead of 
large fixed-wing air tankers enabled better pre-positioning of aviation 
assets in areas where the greatest danger existed and the more accurate 
application of retardant. The Forest Service is currently completing a 
long-term aviation strategic plan that will address the wise use of 
fixed-wing and helicopter assets, which we fully expect to further 
improve efficiency.
    Effective use of suppression assets requires close coordination 
among federal, state, and local agencies. Under the oversight of the 
Wildland Fire Leadership Council, federal, state, and local resources 
are being more effectively coordinated in response to wildfires. I am 
pleased with the coordination that has resulted through this effort.
    Although the FY 2004 fire season was relatively mild, the agency 
still expended $726 million for wildfire suppression. The President's 
Budget continues a focus on reducing wildland fire suppression costs 
and provides suppression funds at the ten-year average cost adjusted 
for inflation. Additionally, the Budget contains incentives for 
reducing costs through the allocation of funds to the field and 
authorizing use of unobligated balances for hazardous fuel treatments.
                 forest service operational efficiency
    In response to concerns about agency accountability and management, 
the Forest Service has been diligently working to improve its financial 
and program management. The agency's implementation of a new planning 
rule is expected to significantly reduce both the time and cost to 
amend or revise land management plans. In addition, the rule provides 
for a pre-decisional objection process that replaces a less efficient 
appeal process. With the objection process, the public has an 
opportunity to make their concerns known to a higher-level official, 
and the agency then has the opportunity to make appropriate adjustments 
before the plan is approved. The appeal process, which was after plan 
approval, required any necessary or appropriate changes to be made 
through further planning processes.
    Another important efficiency initiative contained in the 
President's Budget will enable the agency to more effectively manage 
its facilities. Presently, the agency has over 40,000 facilities in its 
inventory--significantly more than it needs, averaging substantially 
more than one building per employee. Legislation proposed as part of 
the budget will authorize the sale of unneeded facilities for fair 
market value, and the use of sale proceeds to address the maintenance 
backlog. In addition, the legislation will provide for the 
establishment of a working capital fund for facility maintenance that 
will assess programs that use facilities for the maintenance of those 
facilities. Local line officers will need to assess the number of 
facilities that are needed and the necessary operating funds to perform 
facilities maintenance--this creates the incentive to keep the number 
of facilities to a minimum. The rest will be conveyed at fair market 
value. It is anticipated this action will reduce the agency deferred 
maintenance backlog by 25 percent by FY 2010.
    In response to the President's Management Agenda, the Forest 
Service is becoming more efficient in how it performs administrative 
support. By the end of FY 2005, the agency will have completed its 
implementation of a new information technology support organization and 
the centralizing of its financial management. In FY 2006, the agency 
will centralize its human resource management activities. Combined, 
these three efforts will reduce overhead expenses by $91 million 
annually. I appreciate the support Congress has shown as the Forest 
Service implements these reforms.
    Even with these improvements, however, inefficiencies increase 
program delivery costs and are impeding Forest Service performance. The 
Administration proposes additional reforms to enhance Forest Service 
efforts to improve its accountability and focus on measurable results 
in the management of our national forests. These reforms will 
significantly reduce overhead, business management, and other indirect 
costs to improve efficiency and program delivery.
    In recognition of the agency's commitment to sustained and 
effective financial management, I am very pleased that the Government 
Accountability Office (GAO) removed the Forest Service from its ``High 
Risk List.'' The GAO's action was a direct result of three successive 
``clean audit'' opinions and the demonstrated commitment of the 
Administration to implement organizational change that will ensure the 
Forest Service's ability to sustain future clean audits.
                               conclusion
    A ``clean audit'' opinion is the minimum the public should expect 
from the Forest Service. Just like America's citizens, a federal agency 
should be able to balance its checkbook. Further, the agency must 
demonstrate that it performs its mission as efficiently as possible. 
The President's Management Agenda is creating the framework for 
efficiency. I believe the Forest Service has responded well and is 
demonstrating its commitment to the efficient delivery of natural 
resource management on federal and non-federal forest and rangelands. I 
look forward to working with Congress to enact the President's FY 2006 
Budget.
    I would be pleased to answer any questions.

    Senator Craig. Dale.

     STATEMENT OF DALE N. BOSWORTH, CHIEF, FOREST SERVICE, 
DEPARTMENT OF AGRICULTURE, ACCOMPANIED BY HANK KASHDAN, BUDGET 
                            DIRECTOR

    Mr. Bosworth. Mr. Chairman, I also appreciate the 
opportunity to talk about the President's budget for the Forest 
Service for 2006. I'm accompanied by Hank Kashdan, who is our 
budget director in the Forest Service.
    I appreciate, Mr. Chairman, your comments about the 
University of Idaho. I am proud that I went to school there. I 
would say I would have studied a little bit harder if I had 
known I was going to be in this job some day though.
    [Laughter.]
    Mr. Bosworth. But it was a great experience and it is a 
great institution.
    I also appreciate the comments on our centennial in the 
Forest Service. A hundred year mark is a great opportunity for 
us, I think, to reflect a bit on the past, but more importantly 
to look to the future into another century of service to our 
Nation's forests and to the American people. We believe that we 
are fit for the job and looking forward to the kinds of changes 
that we need to make to do the job that people expect us to do.
    My opening remarks are going to focus on four areas I would 
like to talk about briefly.
    First a little bit about the tight and austere budget and 
second, some of the efficiencies that we are trying to take to 
improve our organization so we can get more dollars to ground.
    Third, we are working toward getting better visibility and 
better collaboration, making our decisions more visible to the 
public, and doing a better job of collaboration. Finally, 
integrating all the functions of our work so that we are able 
to provide for healthy forests and healthy communities.
    So I would like to discuss each one of those.
    First, the tight, austere budget. It is a difficult budget 
time and there are a lot of programs that the Forest Service 
deals with that we like very much. But we have a role along 
with all the other Federal agencies to help with the budget 
deficit. That means that there are some tough choices and some 
tradeoffs that we have to make. We believe that this budget 
reflects some difficult choices and some difficult tradeoffs 
and we would be happy to discuss any of those.
    It also keeps a focus on the highest priorities. The 
highest priorities for us are reducing the risk of catastrophic 
wildfire and continuing to improve the health our Nation's 
forests.
    Next, I would like to talk about to some of the 
efficiencies. Under Secretary Rey discussed some of those, but 
one of the things that we have been working hard on for at 
least the 4 years that I have been in this job is to improve 
our ability to get the dollars to the ground to do the work.
    There are several kinds of efficiencies we have been 
working on. One deals with our process stuff, what I have 
referred to as analysis paralysis or process gridlock or 
process predicament.
    With the help of Congress and with the help of the 
administration, we have tools in place that are helping us to 
improve those efficiencies, things like the Healthy Forests 
Restoration Act and stewardship contracting and categorical 
exclusions. All those areas have helped us to be able to get 
the job done on the ground better.
    We still have a ways to go. There are many other things 
that we as an organization, working through our regulatory 
processes, need to continue to improve.
    The other part is our administrative reforms, sort of the 
internal workings, our business management processes. As 
mentioned earlier, we expect with our administrative reforms to 
be able to save $91 million a year once we institute our 
changes.
    We expect that our administrative reforms will result in a 
reduction of about 1,300 FTEs, full-time equivalents. One of 
the steps we are taking is centralizing some of our processes.
    Take, for example, our financial management processes. We 
will be centralizing those in Albuquerque. We have the 
Albuquerque service center open and we are in the process of 
finalizing that.
    That along with getting our clean audit opinions and making 
changes to our overall financial management system, I think, 
puts us well on the road to being able to sustain a quality 
financial management system in the Forest Service.
    We are doing the same kinds of adjustments in our 
information technology and our human resources areas so that 
when we are done with that, we will have people in a 
centralized location. We will be more consistent and we will be 
saving dollars.
    We are also going to be proposing some changes in our 
facilities management. We have some proposals regarding 
facilities management that we believe will also improve our 
efficiency. I would be happy to discuss those in more detail.
    Again, I believe that these commitments and these changes 
will allow us to get more dollars to the ground in the end.
    I mentioned visibility and collaboration are what we are 
working on. There are several areas that we are moving on to 
increase our public participation and our public involvement.
    One that is really important is our partnerships. That is a 
huge opportunity for us for the future. We have always used 
partnerships for a long, long time, but there are many more 
opportunities for us.
    I am pleased to say that in fiscal year 2004, for about 
$500,000* worth of appropriated dollars, we got about $500,000* 
worth of dollars and in-kind work from our partners, resulting 
in a billion dollars getting to the ground to get the job done.
---------------------------------------------------------------------------
    * NOTE FROM THE DEPARTMENT OF AGRICULTURE: We believe that Chief 
Bosworth meant to say $500 million. Chief Bosworth noted this 
correction later in his testimony.
---------------------------------------------------------------------------
    We are making some changes through our planning rule and 
our planning processes. We came out with a revised planning 
rule in December. While there is some controversy associated 
with that, I believe that it will help us work with the public 
in a more effective way than we have in the past.
    When it takes 8 to 10 years to complete a forest plan, it 
is very difficult for people who just care about the land to 
stay engaged. And under our new planning rule, we expect to be 
able to complete a forest plan in 2 to 3 years. I think people 
then can stay engaged and involved in our process; that will 
give us more visibility.
    There is also in our planning rule a requirement for 
independent audits on each forest each year. Those audits will 
be done. As I said, they are independent and those will also 
increase our visibility. Each year, we will be able to tell 
people whether or not we did what we said we would do and 
whether or not we are getting the results that we said that we 
would get. We will then make adjustments based upon monitoring 
if we are not getting the results we want.
    In the area of fire and fuels treatment, we have community 
wildfire protection agreements in place in over 600 
communities. That is bringing more people together and 
involving people in a more high visibility way so that we can 
focus on hazardous fuels areas that the communities also 
believe we need to work on.
    The ``Federal Lands Recreation Enhancement Act'' allows us 
to create recreation advisory councils where, again, we can get 
participation from people and determine where and when and if 
we should be charging fees.
    Moving on to the last area, the area of integrated work to 
provide for healthy forests. In that area in 2006, the Forest 
Service is going to reduce hazardous fuels on 2.8 million 
acres. Now, a million acres of that will be done through other 
kind of nonhazardous fuels dollars.
    The point there is that we want to take our wildlife 
dollars and our timber stand improvement dollars and the timber 
sales and forest product dollars and focus those dollars in 
areas where we can achieve the objectives of those dollars, but 
also do it in places where we have fuels problems, where we can 
treat fuels and get multiple benefits.
    By doing a better job of integrating the work among the 
different functions so that we can get more benefits from each 
dollar that we spend on the land, I think we can end up 
improving our efficiency and accomplishing more work.
    So, again, I am looking forward to working with you. It is 
a tight budget. We will deliver our programs, though, by 
focusing on the right priorities, by improving our efficiency, 
and by integrating our work.
    I would be happy to answer any questions and I am looking 
forward to that.
    Thank you.
    [The prepared statement of Mr. Bosworth follows:]
     Prepared Statement of Dale N. Bosworth, Chief Forest Service, 
                       Department of Agriculture
                              introduction
    Mr. Chairman, Senator Bingaman, and members of the Committee, thank 
you for this opportunity to discuss the President's Fiscal Year (FY) 
2006 Budget for the Forest Service. I am privileged to be here with you 
today. Let me first say, Mr. Chairman and Senator Bingaman, how much I 
appreciate the support you have given the Forest Service as we 
implement our new administrative service center in Albuquerque. 
Establishing this center is an important component of the agency's plan 
to deliver its mission in the most efficient way possible.
    I am pleased to discuss the President's FY 2006 Budget request for 
the Forest Service, which totals $4.07 billion in discretionary 
funding. It emphasizes the top priorities of the agency, especially the 
President's Healthy Forests Initiative, that are essential to improving 
the sustainability and health of the nation's forests and rangelands. 
First, I will discuss the future direction of the Forest Service. Then, 
I will describe our efforts to reduce wildfire threats and costs. For 
the remainder of my testimony, I will highlight programs and 
legislative proposals that reflect new directives or shifts in emphasis 
for FY 2006.
                 future direction of the forest service
    This year the Forest Service celebrates its 100th anniversary. We 
are commemorating a century of caring for America's national treasures. 
One hundred years ago, America's first forester, Gifford Pinchot, 
recognized that ``our responsibility to the Nation is to be more than 
careful stewards of the land, we must be constant catalysts for 
positive change.'' This advice was true in 1905 and remains a guiding 
light now in 2005. Change is inevitable. This is why the Forest Service 
is committed to being a catalyst for positive change into our next 
century of service.
    Congress created the Forest Service as part of a national strategic 
response to the degradation of watersheds and the substantial loss of 
forests and wildlife that was occurring at a rapid rate during the last 
half of the 19th century. Let me briefly reflect on how much has 
changed since the Forest Service was established in 1905. During the 
last half of the 19th century, the U.S. population had more than 
tripled and forests were being cleared for agriculture at an average 
rate of 13.5 square miles per day. Wildfires were burning 20 to 50 
million acres a year between 1880 and 1930. These fires, as well as 
unregulated hunting and logging, were threatening long-term economic 
and environmental values. In fact, these activities were tolerated and 
even encouraged in the name of economic development, but it had become 
increasing clear that what was going on was unsustainable.
    Establishing the Forest Service in 1905 created a direct response 
to these threats. This response has been successful. The decline in 
U.S. forest land has stabilized and forest acreage is now about what it 
was in 1905. In fact, forest land in the Northeast has actually 
increased by 26 million acres since the Forest Service was established. 
Areas burned by wildfire have declined 90 percent since the 1930s. 
Forest growth has exceeded harvest since the 1940s. Tens of millions of 
acres of cutover lands that existed in 1905 have been reforested. Many 
of these are now mature forests whereas other reforested lands have 
been harvested a second time and are starting a new cycle. While some 
wildlife species continue to face threats, many others that were 
greatly depleted or nearly extinct in 1905 have increased dramatically, 
such as Rocky Mountain elk and wild turkey.
    The Forest Service has played a key role over the past 100 years in 
creating the changes that have touched our landscapes. In January, the 
agency convened a Centennial Congress in Washington D.C. to discuss 
these changes and the future 100 years of the Forest Service. Delegates 
to the Congress examined issues ranging from engaging the public in 
land management decisions to rewarding forest owners for carbon 
sequestration, delivering clean water, and providing other multiple-use 
benefits. We discussed how American society shifted from rural and 
agrarian to urban and industrialized. This in turn influenced the mix 
of uses and values the public seeks from its public lands. Today we see 
increased demands for recreation, greater consumption of natural 
resources, and mounting pressure on public lands from new development. 
Yet, at the same time, the public is expressing greater concern over 
the need for sustainable resource management.
    This historical shift places us in a conservation era that focuses 
on ecological restoration and long-term sustainability. We must manage 
the land for long-term ecosystem health and sustainable uses while 
meaningfully engaging the public in our decision-making. Land managers 
must be adaptable, innovative, and welcoming of new information, ideas, 
and perspectives. In the end, to be that constant catalyst for positive 
change in this era, the Forest Service must be more collaborative, 
accountable, and efficient in managing our natural resources.
    In the face of constant change, Americans must examine their 
consumption choices as an important aspect of sustainable development 
and ecosystem health. The United States consumes more wood than any 
other country. We also consume far more timber than we produce. The 
Forest Service has an opportunity to promote sustainable wood 
production and consumption. For example, Americans build roughly 1.5 
million single-family houses each year, which consume roughly 22 
billion board feet of lumber. At the same time, we lose approximately 
17 percent of this amount to fire each year, which is equivalent to 
250,000 new houses. We also lose a significant amount to insects and 
diseases. If we could salvage some of this lost wood, without 
compromising ecosystem health, we could help minimize our need to 
import wood. When imports encourage illegal or unsustainable 
environmental practices abroad, then there's a problem. This is why the 
Forest Service is assisting the State Department with implementing the 
President's initiative against selling illegal logs. The goal of the 
initiative is to combat illegal logging and the sale of illegally 
harvested timber products. But, minimizing consumption from foreign 
forests is only part of the equation. If we want healthy and resilient 
ecosystems and communities, then we need intelligent consumption 
balanced with sustainable management of our nation's forests and 
rangelands.
  we are implementing a long-term strategy to reduce wildfire threats
    Restoring fire-dependent ecosystems is the long-term solution to 
reduce the harmful effects of catastrophic wildfire. Restoration work 
involves eliminating the buildup of hazardous fuels so that natural 
fire regimes may be reestablished. The results of this effort may, in 
some cases, take several years before we begin to see significant 
changes in the way fire burns across the landscape. The President's 
Healthy Forests Initiative (HFI) is helping us tackle the process 
gridlock that was impeding the restoration of fire-adapted ecosystems, 
including the treatment of hazardous fuels.
    In support of the HFI, the President's Budget dedicates $281 
million to treat 1.8 million acres for hazardous fuels. An additional 
one million acres will be protected as part of other natural resource 
management activities. Since 2001, Federal land management agencies 
have treated 11 million acres of hazardous fuels on public lands. The 
Forest Service and the Department of the Interior (DOI) agencies 
exceeded our program goals by accomplishing 2.9 million acres of 
hazardous fuel reduction for 2004, including 1.6 million acres in the 
Wildland-Urban Interface (WUI). Fifty-seven percent of these treatments 
were in the WUI.
    Another part of our long-term restoration strategy is to treat the 
right acres, in the right place, at the right time. Consistent with the 
President's recent Executive Order on Cooperative Conservation, the 
Forest Service is working closely with State forestry agencies and 
other partners to coordinate fuel treatments and to provide technical 
and financial assistance to reduce hazardous fuels on State and private 
lands. We are also enlisting the assistance of local communities. The 
Forest Service is working with coalitions of interested citizens to 
identify those areas in greatest need of hazardous fuel treatments. 
This collaborative effort includes helping communities complete 
Community Wildfire Protection Plans (CWPP). To date, over 600 such 
plans have been completed or are in progress across the nation. The 
number of plans will continue to grow as partnerships are formed and 
high-risk areas are identified. A consistent and systematic interagency 
approach will have a large-scale impact on reducing the size and 
severity of catastrophic wildfires. In addition, in FY 2005, a handful 
of pilot projects supported by our Research program will test the 
strategic placement of fuel treatments on the behavior and effects of 
wildland fires. If this is effective, we will be better positioned to 
design and locate treatments to make a difference in the size, 
behavior, effects, and costs of fires. This integrated approach will 
maximize our investment in fuel treatments and allow us to build more 
integrated fuel treatment strategies with our partners.
    The expanded stewardship contracting authority provided by Congress 
is another key feature of the President's Healthy Forests Initiative 
goal of reducing catastrophic wildfire threats by making treatment of 
the land more cost-effective and collaborative than ever. For example, 
it allows contractors to make economic use of materials removed during 
restoration or thinning projects. This incentive promotes efficient 
land management practices and creates business opportunities in local 
communities. Using the stewardship and general contracting authority 
that Congress included in the Tribal Forest Protection Act (P.L. 108-
278) enacted last summer, Indian tribes have the opportunity to enter 
into agreements with the Secretaries of Agriculture and the Interior to 
achieve additional fuels reduction work on federal lands adjacent to 
their reservations. We are working with the Bureau of Land Management 
and Tribes on implementation guidelines for the Act.
    In all, we have a multi-faceted approach to tackling wildfire 
threats. Stewardship contracting, collaborating with partners, and 
strategically treating hazardous fuels are just a few examples. With 
your continued support of our hazardous fuels program and the HFI, we 
can have a long-term impact on minimizing the threat of catastrophic 
wildfire.
 we are looking for new ways to reduce wildland fire suppression costs
    In addition to reducing wildland fire threats, we must also reduce 
fire suppression costs. The President's Budget proposes a $51.6 million 
increase above the FY 2005 enacted amount for wildland fire 
suppression. This reflects the most recent 10-year average for 
suppression costs, which are on an upward trend. Despite going into the 
2004 fire season on the heels of continuing drought and dry fuel 
conditions, the fire activity resulted in a below-average year across 
most of the nation. Alaska, the lone exception, experienced its worst 
fire season on record with 703 fires and 6,517,200 acres burned. The 
lower 48 states experienced 61,873 fires that burned 1,394,144 acres. 
We attribute this less severe fire season to more favorable weather, 
fewer dry lightning storms, and to achieving initial attack success 
rates of over 99 percent.
    Despite this relatively ``good'' fire season, the agency still 
expended $726 million on wildland fire suppression. The Forest Service 
will continue to focus on reducing wildland fire suppression costs 
through incentives for efficient funds management, effective supply 
chain management, and rapid demobilization of incident response 
resources. The President's Budget provides additional incentives for 
reducing suppression costs by allocating suppression funds to the field 
and authorizing use of unobligated wildfire suppression funds for 
hazardous fuels treatment. Thus, a line officer's success in reducing 
suppression expenses can be rewarded through the availability of more 
funds to reduce hazardous fuels. Additionally, the Forest Service will 
work with the independent panel that was established by Congress to 
assess the agency's management of large wildland fires. The panel's 
first report on the FY 2004 fire season will be completed soon.
        research guides our decisions and delivers new solutions
    In addition to these efforts, hazardous fuels reduction is critical 
to minimizing wildland fire suppression costs. Creating market-based 
incentives for the removal of this ``biomass'' is an important aspect 
of the agency's Forest and Rangeland Research program. The President's 
budget includes a $10 million request for capital improvements in our 
Forest Products Lab, which has been a world leader in developing 
innovative products made from wood and other forest materials. 
Maximizing use of forest biomass can complement forest management, 
provide jobs in local communities, and offer a renewable energy source 
for our country. The agency's Research program is critical for 
developing new technologies that make economic use of unmarketable and 
other salvageable forest materials while meeting our resource 
management needs. For example, the Lab developed a new composite 
material for residential siding made of recycled plastic and wood from 
Juniper and Salt Cedar, two tree species that contribute to hazardous 
fuel loads in the Southwest. Biomass utilization offers a host of 
opportunities, many of which are yet to be discovered. For this reason, 
we are pleased that the President's Budget includes such an important 
investment in our country's future.
    The President's Budget also includes a $12.8 million boost in 
research to fund the Forest Inventory and Analysis (FIA) program to 
cover 100 percent of America's forests with an annual inventory. The 
FIA is the nation's only forest census, which has been keeping track of 
the heartbeat and other vital statistics of America's forests for 
roughly 75 years. FIA is the only program delivering continuous and 
comprehensive assessments of our forests in a nationally consistent 
manner across all land ownerships. Policy and programmatic decisions 
hinge on what the census tells us about forest health. The FIA's up-to-
date monitoring, coupled with cutting-edge research and our State and 
Private Forestry programs, also play a key role in addressing the 
emerging threat of invasive species. The FIA is critical to assessing 
our current progress in implementing our Invasive Species Strategic 
Plan. Moreover, FIA information will feed into the two national Early 
Warning System Centers that we are establishing in FY 2006 to identify, 
detect, and rapidly respond to environmental threats, such as invasive 
species, diseases, insects, and fire.
  our new planning process is more flexible, efficient, and responsive
    Our future forest planning efforts will focus more on emerging 
threats, such as invasive species, wildfires, and unmanaged recreation. 
To meet these challenges, the Forest Service recently published a 
planning rule that offers greater flexibility for land managers. The 
rule establishes a dynamic planning process that is less bureaucratic, 
emphasizes science, and provides more opportunity for public 
involvement earlier in the planning stages. Moreover, land management 
plans must be more strategic, transparent, timely, and cost-effective.
    This new planning process directs each forest and grassland unit to 
adopt an Environmental Management System (EMS), which is an adaptive 
management tool designed to provide feedback to land managers on all 
phases of land decisions. A key feature of the EMS requires independent 
audits of our agency's performance at 5-year intervals to ensure that 
we are achieving the plan's goals. The EMS will ground our decisions in 
science and strengthen our accountability.
    Public involvement in our decisions also makes us more accountable. 
This is why the rule requires opportunities for public involvement at 
four key stages in the planning process. The rule also establishes a 
pre-decisional objection process that replaces our agency's costly and 
lengthy appeals process. These new features encourage the public to 
participate with land managers in the early planning stages to resolve 
any issues and concerns. This will be less adversarial than in the past 
where some people waited until after a final decision to make their 
concerns known by filing an appeal. Under the old rule, it typically 
took five to seven years to revise a 15-year land management plan, and 
in the case of one forest, cost as much as $5.5 million. Under the new 
rule, a plan revision will take approximately two to three years and 
cost much less.
        we can reap multiple benefits from preserving open space
    The President's Budget dedicates $80 million to the Forest Legacy 
Program, which will protect an estimated 300,000 priority acres in FY 
2006. This program is an excellent tool for reducing the loss of open 
space and saving working forests. This program is successful, in part, 
because it places the important decisions of how and where to protect 
open space in the hands of states, local governments, individual 
landowners, and non-profit partners. Protection of open space serves 
multiple purposes that go beyond the obvious benefit of supporting 
biodiversity, maintaining scenic beauty, and preventing conversion of 
land to undesirable uses. More open space directly encourages and 
supports working forests, working farms, and working ranches. This is a 
value-added benefit that makes it profitable to maintain open space. We 
need to maintain ``working forests''--those that are managed to produce 
economic and environmental benefits. Study after study shows that 
conservation of forests is one of the best methods for keeping our 
drinking water safe and clean.
    Another key to this program's success is that it leverages millions 
of dollars at the local level. For example, each Federal dollar 
typically leverages an equal amount in non-Federal contributions. Since 
1992, a $197 million Federal investment has protected over $381 million 
of land value, encompassing over 1 million acres through conservation 
easements and land purchases. We hope that you will continue to support 
this important program.
    The President's Budget also proposes an increase of $5 million for 
the Forest Stewardship Program, which provides planning and management 
assistance to thousands of America's private forest owners. Federal 
funds are leveraged by contributions from State forestry agencies that 
deliver this program. The improved forest management that results from 
this program benefits all Americans by providing a full range of 
ecosystem services, including clean water and air, habitat for 
wildlife, and forest products.
 we have new approaches to tackle the public's growing recreation needs
    National forests and grasslands are an integral connection between 
the American public and their desire to experience the great outdoors. 
The Forest Service hosts more than two hundred million recreation 
visitors each year. Reconciling this demand within the limits of 
maintaining sustainable ecosystems is becoming a greater challenge each 
year. To address this issue, we are looking at a variety of new 
approaches to keep us in the forefront of meeting visitors' 
expectations of having safe and enjoyable recreational experiences. 
Last year President Bush signed into law the Federal Lands Recreation 
Enhancement Act. This Act allows the Forest Service to charge modest 
fees at recreation sites that can be used to help maintain and improve 
the recreational experience of our visitors. The vast majority of 
recreation sites and services will continue to be free for activities 
such as horseback riding, walking, hiking, and general access to 
national forests and grasslands. The Act also establishes citizen 
recreation advisory committees that will provide important input on 
implementation of the fee program. We look forward to working with 
these committees and Congress to ensure that the public is fully 
involved and fees are fair for the value received.
    In the past several years, I have noted that unmanaged recreation, 
particularly with respect to off-highway vehicle (OHV) use, is a major 
challenge to our national forests and grasslands. The age of Americans 
being able to drive anywhere on National Forest System lands has come 
to an end.
    Over the last three decades, ownership of OHVs in the United States 
has grown from 5 million to 37 million vehicles. National forests are 
experiencing an explosion of user-developed trails beyond our agency's 
capacity to manage or maintain. Some of these unauthorized trails are 
causing unacceptable resource damage. In response, the Forest Service 
recently published a proposed regulation on management of motor vehicle 
use on national forests. The regulation would require forests to work 
closely with local communities to designate roads, trails, and areas 
open to motor vehicle use and specify allowable use by vehicle class 
and time of year. Motor vehicle travel off of the designated system 
would be prohibited. The agency is currently developing the final rule, 
which is expected to be published later this year.
        we need to reverse the trend of deteriorating facilities
    Our backlog in deferred maintenance for our infrastructure 
continues to be a challenge. This backlog is especially critical for 
facilities that provide recreation opportunities to the public, as well 
as our administrative sites where employees work and provide services 
to the public. It is appropriate that we look for solutions beyond 
appropriations to tackle our deferred maintenance backlog. For example, 
this budget proposes a new incentive-based approach to reduce our 
maintenance backlog for administrative sites and visitor centers. 
Moreover, the President's Budget proposes new legislation that 
authorizes the Secretary of Agriculture to sell or exchange 
administrative sites that are no longer needed for National Forest 
System purposes. The legislation will facilitate the timely disposal of 
administrative sites and free up dollars to invest back in existing or 
replacement facilities. It will also provide for the use of a working 
capital fund for the performance of routine maintenance. These reforms 
will assist the agency in maintaining and improving the quality of its 
facility assets.
  we have made great strides in performance and financial management 
                             accountability
    The Forest Service will continue agency-wide efforts to improve 
performance and financial management accountability in FY 2006. We have 
already made significant progress toward this goal. I am proud to 
report that the Government Accountability Office removed the Forest 
Service from its ``high risk'' list because we achieved a third 
consecutive ``clean'' audit opinion and are implementing significant 
organizational changes that assure sustainability in financial 
management. Not only is this an important accomplishment for our 
agency, but it demonstrates our serious commitment to make continued 
improvements in financial management, as well as build efficiency into 
other administrative areas that have been burdened with outdated 
policies and decentralized processes. While I am pleased with our 
financial management improvement, I must also acknowledge that 
attaining this milestone simply means that we are now balancing our 
checkbook--something the public should expect as the norm. Keeping the 
checkbook balanced will allow the agency to better focus on its natural 
resource management functions.
    Our Financial Management Improvement Project is moving forward as 
planned. Later this month, the new Albuquerque Service Center will be 
operational, with phased implementation throughout this fiscal year. 
This new center, which you have been so supportive of, will provide 
financial and budgetary services to the agency using performance 
standards that focus on customer service, efficiency, and data quality. 
With full implementation of financial management reforms, the Forest 
Service anticipates that it will realize a $35 million in annual 
savings. Additionally, when other reforms are implemented, the annual 
savings will increase to $91 million.
    A key element of quality financial management is the ability to 
link funding and expenditures to the strategic goals of the agency. In 
response to the Budget and Performance Integration initiative in the 
President's Management Agenda and the Government Performance and 
Results Act, the Forest Service is presenting an improving performance-
based budget year after year. In FY 2004, the Forest Service completed 
a new strategic plan. This planning blueprint has helped the Forest 
Service and its field units develop programs of work that address our 
natural resource needs while maximizing limited resources and improving 
performance accountability. The strategic plan was the driving force in 
making budget decisions and requests for FY 2006. With important system 
enhancements, the Forest Service will be able to provide project-
specific information about FY 2006 expenditures with direct linkage to 
our strategic plan's goals and objectives.
    To assure that the Forest Service's annual activities are 
appropriately aligned with its Strategic Plan, the agency is making 
effective use of the Program Assessment and Rating Tool (PART). The 
PART process has been used in the past to develop more effective 
performance measures and emphasis in programs, including wildland fire 
management, capital improvement and maintenance, Forest Legacy, and 
invasive species. Two additional programs will be evaluated in support 
of the FY 2006 President's Budget.
                               conclusion
    The President's Budget for FY 2006 delivers funding for innovative 
approaches as well as long-standing programs that have served the land 
and the American public well. The President's Budget also demonstrates 
that the Forest Service must use incentive-based approaches to reduce 
costs and accomplish its mission. We must continue to work closely with 
Federal and non-Federal partners to leverage alternative funds to 
accomplish our program of work. As I said at the beginning of my 
testimony, we must move forward with a renewed interest in 
collaboration, efficiency, and accountability as we enter this new 
century of service. We must be rapid responders, but we must also 
respond to change with great care. After all, we are the trustees of 
America's greatest natural resources.
    Thank you for this opportunity to discuss the President's Budget. I 
look forward to working with you to implement our FY 2006 program and 
am happy to answer any questions you may have.

    Senator Craig. Well, thank you very much, Chief, Secretary 
Rey.
    We have been joined by Senator Salazar.
    Ken, do you have any opening comment you would like to make 
before we start the questioning rounds?
    Senator Salazar. I would simply submit my opening statement 
for the record.
    Senator Craig. Thank you. I appreciate that.
    [The prepared statement of Senator Salazar follows:]
   Prepared Statement of Hon. Ken Salazar, U.S. Senator From Colorado
    Thank you Mr. Chairman. Good morning to members of the committee, 
and welcome Chief Bosworth and Under Secretary Rey.
    I am glad to be here for these gentlemen's respective testimony on 
the President's proposed budget for the Forest Service. Colorado has 
eleven National Forests in all areas throughout our great state. These 
lands provide great opportunities for Coloradans and all to experience 
natural wildlife.
    My priorities for the Forest Service Budget for FY 2006 are clear: 
we must ensure that we provide appropriate funding for fire management 
and prevention and adequate maintenance of existing facilities and 
access roads. Also, we must ensure that it is affordable for our 
citizens to enter and enjoy our National Forests.
    Last week, I was home in Colorado. I traveled over 2,000 miles and 
conducted 17 meetings with local leaders, elected officials, and 
citizens. During the week I repeatedly heard from Coloradans who have 
concerns about the President's budget and what it means for Colorado.
    I am very concerned by the Administration's continued cuts to land 
management planning. The ongoing staffing shortages within the Forest 
Service prevent many National Forests from completing plan revisions. 
Staffing continues to decrease. The FY 2006 budget proposes a 30% 
reduction from FY 2005, or a cut of over 100 full time equivalents 
(employees).
    At the same time, road maintenance continues to be a significant 
needed improvement for the Forest Service. In 2004, the Forest Service 
reported that deferred road maintenance needs were approximately $10 
billion. Even with this backlog the agency continues to propose road 
building in roadless areas--principally for oil and gas development as 
well as commercial logging. My concern is that we maintain our existing 
roads before we start creating additional responsibilities that the 
Forest Service has neither the resources nor the personal adequately to 
manage.
    Finally, I am concerned by the Administration's continued lack of 
funding for the National Fire Plan. The FY 2006 budget proposes an 84% 
cut from the FY 2005 level for Rehabilitation and Restoration, an $88 
million cut for Community Assistance and over $30 million in cuts for 
the monitoring of forest fire areas.
    I am hopeful that we will have the opportunity to address these 
issues today with Chief Bosworth and Under Secretary Rey.
    Thank you.

    Senator Craig. Well, I understand we have a bit of a 
reprieve. The vote will probably not start until around 11. So 
let us get started with the round of questions. We will do 5-
minute rounds and try to move as rapidly as we can through, but 
at the same time, I think, cover the issues that many of us are 
concerned about.
    Again, let me thank you both for being here and the 
testimony you have offered.
    Let me begin with the proposal to sell excess properties 
and retain the revenues. As in past years, I assume these are 
small lots or buildings that the agency no longer has any need 
for.
    Is that correct?
    Mr. Rey. That's correct.
    Senator Craig. Okay.
    Mr. Rey. Buildings and the lots underneath them.
    Senator Craig. Yes. I note that you have proposed 
significant reductions in capital improvement line items as 
well as facility construction and maintenance, road 
construction and maintenance, and trail construction and 
maintenance.
    If I follow your proposal, you will sell some excess 
properties and use part of the revenue to help pay for facility 
construction and maintenance and some to acquire new facilities 
and/or new lands. Is that correct?
    Mr. Rey. Facilities.
    Senator Craig. Facilities, not land?
    Mr. Rey. Correct.
    Senator Craig. Approximately how much of the revenue will 
be used to pay for facility construction and maintenance--your 
guesstimation?
    Mr. Rey. Probably initially most of it.
    Senator Craig. But it will not be used to acquire lands; is 
that correct?
    Mr. Rey. That would not be our intention.
    Senator Craig. How would the Department feel if we adopted 
a proposal but direct that 90 percent of the revenue be used 
largely to improve forest health conditions on our national 
forests?
    Mr. Rey. Well, you could obviously do that. What we were 
trying to do is match how we allocated our budget priorities in 
line with this proposal. So a good reason that we took a cut in 
facilities maintenance, reprogramming that money into things 
like healthy forest work, was because we assumed that if you 
looked favorably upon enactment of this legislation, we would 
make up the difference in the revenues generated from the 
passage of the legislation.
    Senator Craig. In the mandatory appropriations section of 
the bill, I note an increase of $36 million in the land 
acquisition and enhancements section.
    Am I correct that the total requested budget for land 
acquisition, when you add in the discretionary and mandatory 
line items together, is about 76 million? Could you explain 
that, please?
    Mr. Kashdan. Yes. Senator Craig, the receipts you are 
referring to in the land acquisition and enhancement fund is 
the title of a treasury account that has multiple activities in 
it.
    In fact, what you had mentioned regarding the receipts from 
the sale of facilities is the deposit. Those deposits are 
reflected in that account. So that money is not for land 
acquisition. The amount of land acquisition is only what is in 
the discretionary account.
    Mr. Rey. Approximately $40 million.
    Senator Craig. So do I understand your proposal correctly 
that revenues from the sale of some of the excess properties 
will not be used to fund these maintenance programs?
    Mr. Bosworth. If I could answer that. The purpose of the 
sale of property--administrative sites--would be to take the 
receipts, put them into a fund that would allow us to do 
building maintenance and facilities maintenance. So that is 
where those dollars would go.
    We would also help make up some of our needs through 
developing a working capital fund where we would assess each 
building that we have based on the number of square feet. That 
working capital fund would be built up through that assessment 
as well as the revenues from the sale of the properties.
    We believe that we can reduce our backlog in terms of 
facilities maintenance by 25 percent by the year 2010 by 
implementing something like this.
    Mr. Rey. And that is a very conservative estimate in our 
judgment.
    Senator Craig. Is my assumption correct then that roads and 
trails take the heaviest hit here as it relates to budget and 
maintenance dollars?
    Mr. Bosworth. That would be correct. The facilities 
maintenance dollars are also down, but our plan for taking care 
of that was as I said. The situation with roads and trails is 
that we would--well, first, let me mention trails. I believe 
that we can do more and more trail maintenance and work through 
partnerships.
    And I misspoke. It was pointed out to me when I was giving 
my opening remarks. I said $500,000 worth of partnerships. I 
should have said $500 million. We have gotten a lot of dollars 
and a lot of work from our partners. $500 million is a 
considerable amount when equal to the $500 million that we use 
in appropriated dollars. Trails is an area where we really do 
well in terms of partners.
    As far as road maintenance, we are going to have to focus 
our road maintenance dollars on those arterial roads and 
collector roads and the roads that have the greatest needs. We 
are just going to have to do a better job of focusing on those, 
working out agreements with counties where they are maintaining 
roads right up to ours, where we can work together to reduce 
our costs.
    So those are the kinds of things that we want to do to 
improve our ability to do the road maintenance. It is a 
difficult choice and that is an area that we have to work 
harder in order to be able to accomplish what we need to 
accomplish in terms of road maintenance.
    Mr. Rey. Another variable that will affect the size of our 
road maintenance needs will be the final disposition of the 
Federal Land Highway Program funding in the surface 
transportation legislation. There is a revenue stream that has 
historically been available to the Forest Service through that 
route.
    There are proposals to broaden it and narrow it, so that is 
a moving target at this point, but one that will ultimately 
have some relevance to what our overall road maintenance needs 
will be in the future.
    Senator Craig. With this difficulty in funding on roads and 
road maintenance, can I take that one step further? And I see 
my time is up, so I will close with this.
    We have forests in Idaho that are currently under the 
development of a travel plan and a roads plan. The Payette 
National Forest is a perfect example. They are into that phase 
now.
    And yet, the Forest Service is out obliterating current 
roads on that forest. They keep coming back to the counties 
involved and the communities involved and saying, well, you 
have to take this one off because we just eliminated it. It has 
created a substantial anger level out there, and it is very 
frustrating to me.
    If the Forest Service is going to work cooperatively with 
the communities in the development of a plan for roads, why are 
they out obliterating roads prior to the collaborative effort 
that might ultimately produce a road plan that could include 
that road?
    So can I assume we will have a moratorium on road 
obliteration on the Payette and other forests in Idaho until 
the road plans are perfected and finalized?
    Mr. Bosworth. I guess I would like to look into it a little 
bit more before I would say we would have a moratorium, Mr. 
Chairman. I am not specifically familiar with what is currently 
going on in the Payette.
    I will say that each forest has gone through a forest road 
analysis, where they involve the public to figure out the 
entire transportation system that they have now and what they 
need. In many cases, there are roads that we are obliterating 
or eliminating that have not had people driving on them for 
years. Now, I know that they are not all like that. We have----
    Senator Craig. Then instead of tank traps and knocking down 
trees, why don't you rip and seed and let Mother Nature do her 
job?
    Mr. Bosworth. In many cases, I would agree with that. In 
fact, that would be the way to go about it.
    Senator Craig. I am glad to hear that. That means that you 
would eliminate half of the road obliteration that is currently 
going on in the Payette, Dale.
    Mr. Bosworth. I will look into the Payette because, as I 
said, I am not familiar with the specifics there.
    Senator Craig. I appreciate that.
    [The information follows:]
    road closures and decommissioning in the payette national forest
    The Payette National Forest (NF) is currently in the middle of a 
major effort of Access Travel Management, including extensive public 
involvement. The counties have been identified as cooperating agencies 
and have been intimately involved in the process.
    As a result of a completely separate effort, the Payette NF has 
implemented a 4-5 year old Vegetation Management EIS Decision 
identifying existing classified and unclassified roads for closure and/
or decommissioning in an effort to reduce sediment and restore 
watershed health.
                             current status
    Decommissioning Roads--In fiscal year 2004, the Payette spent over 
$200,000 closing and/or decommissioning 28.8 miles of classified and 32 
miles of unclassified roads. The forest plans to spend $220,000 in 
fiscal year 2005 to close/decommission an additional 24 miles of 
classified roads and 15.7 miles of unclassified roads.
    Travel Management Planning--The Payette NF has held five public 
meetings seeking public input on travel management options for the 
forest. Senator Craig's staff in Boise, ID has been involved and the 
Forest has intensified its public involvement efforts based on feedback 
provide by the Senator's staff. A draft EIS will be released for public 
comment during summer 2005. A final EIS and decision are expected 
during winter 2006.

    Mr. Bosworth. I do know that we have forests in Idaho where 
there are roads that we are having a lot of problems in terms 
of sedimentation. They have trees in them that are probably 
that big in the middle of the road and that they need to be 
restored.
    Senator Craig. Sure.
    Mr. Bosworth. And you know the drainage needs to be pulled 
out. That is part of the obliteration process as well.
    Senator Craig. I have taken too much time. Thank you very 
much.
    Let me turn to Senator Bingaman.
    Senator Bingaman. Thank you very much, Mr. Chairman.
    Let me start by asking about two New Mexico specific issues 
that I asked about last year when we had this same hearing.
    In both cases, I think there was a pretty clear commitment 
by one or both of you to look into these and get back to us. To 
my knowledge, that has not happened. So maybe we can be sure 
that it happens this time, so I do not just make this an annual 
event.
    One is the Silver City Fire Cache. I visited that location 
over a year ago, prior to the time that I raised it with you 
before, and I was struck by the fact that it is currently 
located in several different buildings. It is not in a single 
warehouse, and it seemed to me to be a very inadequate 
facility.
    I had asked if you could look at that and determine whether 
or not it, in fact, is in need of improvement and whether or 
not you could commit to do that.
    And, Mr. Bosworth, I think you indicated when we talked 
about it a year ago that you would look into that and get back 
to us. I did not know if you had any chance to. I have not 
heard anything back.
    Mr. Bosworth. I thought we had gotten back on all those 
questions and if we did not get back, I apologize to you. I 
will make sure personally that we respond to that question 
about the Silver City Fire Cache.
    I would also like to say that one of the things that we are 
doing at the same time is looking at our whole fire 
acquisition, how we get supplies and disperse those supplies. 
We want to modernize that whole process so we can be much more 
efficient than what we have been in the past.
    And the Silver City Fire Cache as well as all the rest 
would be a part of that. But your question focuses more on that 
facility and the condition of that facility and whether that 
needs to be improved or changed. I will get back to you on 
that.
    [The information follows:]
                           current situation
    The Silver City Fire Cache is currently operating out of a facility 
that consists of nine separate buildings and storage sheds comprising a 
total of approximately 9,000 square feet. Fire cache facilities are 
also shared by the Grant County Aerial Fire Base, the helitack crew, 
and smokejumpers. The current area of coverage for the Silver City Fire 
Cache includes the State of New Mexico, southeastern Arizona and to the 
100th Parallel in Texas and Oklahoma.
    The largest building currently being used at the Silver City Fire 
Cache is scheduled to be converted to an operations building as part of 
the proposed Grant County Aerial Fire Base reconstruction project. 
Should funding for the Grant County Aerial Fire Base be approved prior 
to the approval of funding for the Silver City Fire Cache project, the 
effectiveness of the Silver City Fire Cache will be drastically reduced 
due to the loss of warehouse space.
    Plans and specifications for a proposed Silver City Fire Cache 
construction project were completed in FY 2002.
                         expected budget needs
    The estimate for construction of the proposed 36,000 square foot 
Silver City Fire Cache project is between $4.5 and $5.0 million.
              regional priority for silver city fire cache
    Region 3 of the Forest Service has a long list of Fire 
Administration & Other (FA&O) priorities, consisting of 20 projects, 
which does not include the Silver City Fire Cache. This list was 
developed in April 2000, using national forest input. All the projects 
submitted were ranked. Based on current funding levels, this list will 
take 25+ years to complete. The Forests have the opportunity each year 
to propose changes in the FA&O funding priorities for their Forest. The 
Gila National Forest has not requested any changes.
    At this time, the Silver City Fire Cache is not a regional 
priority.

    Senator Bingaman. I will appreciate that. The other issue, 
and this is one that Senator Domenici and I both raised in the 
hearing last year, and that is on the Valles Caldera National 
Preserve.
    I notice your budget once again requests flat funding, 
$992,000. It was my view last year and it is still my view that 
that is not a realistic funding level for the Forest Service to 
have with regard to the Valles Caldera. We, of course, added 
some funds here in the Congress.
    But, again, this was an issue we raised and urged that you 
look into. And I think there was a commitment to get back to 
both Senator Domenici and myself on that.
    I think, Secretary Rey, you were the one that we were 
talking to at that time. I did not know if you had a chance to 
look into this. Your statement in last year's hearing was that 
I think the $992,000 is basically a flat budget response in the 
absence of analysis that probably needs to be done.
    And I guess my urging is, has that analysis been done? 
Obviously you are still asking for $992,000. Can you get it 
done?
    Mr. Rey. I think it is fair to say the analysis is done and 
we are going to continue to discuss that issue as this budget 
unfolds as well.
    Senator Bingaman. So the analysis was done and you 
concluded that $992,000 was the right amount?
    Mr. Rey. Given our other budget priorities, correct. If the 
only question is, what is it going to take to run the Valles 
Caldera, then that is probably a different number.
    Senator Bingaman. What is the question then that you were 
asking in arriving at the $992,000?
    Mr. Rey. How will they use the additional money? The 
assessment is they would use it to continue to operate their 
existing programs, No. 1.
    No. 2, what is the prospect that they can become more self-
sufficient during the current fiscal year? The answer is 
doubtful in the short term. Perhaps in the longer term.
    There is some indication in the legislation that there was 
an interest in having the trust become a more self-sufficient 
operation. That has not happened and we hope it will still 
happen. We will have to continue to debate what the right level 
of funding is as we try to see if that can happen.
    Senator Bingaman. Well, that is sort of a nonanswer as far 
as I can decipher it.
    Mr. Rey. A muddy answer, I will give you that.
    Senator Bingaman. I gather that your basic position is that 
is all the money you have asked for and that is all you are 
planning to ask for. But I am not exactly clear as to why this 
is such a low priority relative to the other things you folks 
request funds for.
    Let me ask about one other issue and that is your budget 
proposes to eliminate the $7.9 million in funding for the Joint 
Fire Science Program account and instead it suggests that that 
should be funded through the Wildland Fire Preparedness 
account.
    That account is also scheduled for a budget cut and is also 
underfunded. It does not seem to me there is any explanation 
for how this additional activity can be funded through there.
    We have a chart I am going to put up here that shows what 
has happened to the number of scientists in the Forest Service 
or employed in the Forest Service. The trend is not a healthy 
one, at least from my perspective.
    To me, this proposed budget is just another indication of 
the lack of concern about the science that is going into 
decisionmaking there at the Forest Service.
    Could either of you respond on that?
    Mr. Bosworth. Yes. First, science is extremely important to 
the operations of the Forest Service. If you look at a trend of 
the total number of employees in the Forest Service during the 
period of time that they are showing there, I think you would 
see a downward trend in the entire agency.
    In other words--I cannot give you exact figures, but I 
believe in 1985, we were probably in the vicinity of 40,000 
employees and we are probably down to 33 or 34,000, somewhere 
in that vicinity. This reflects part of that decline in terms 
of our numbers of folks.
    We also believe that we can get good science not just from 
our research and development organization in the Forest 
Service. We have good research scientists and we want to 
continue with a very viable research organization, but we also 
want to do a better job of partnering with universities and 
other institutions that are doing good research. We have 
increased that over that same period of time so that we can get 
their research and apply that.
    We are also putting more emphasis on technology transfer so 
that the good science and increased knowledge that we receive 
gets into the hands of the folks who are on the ground so they 
can make better use of it--both in the public and private 
lands, as well as national forest lands.
    So while that does reflect a decline, and it is a decline 
that I am not real thrilled about, I do want us to get as 
efficient as we can in terms of how we do our research and how 
we apply it.
    Senator Bingaman. My time is up, Mr. Chairman. Thank you.
    The Chairman [presiding]. Thank you, Senator Bingaman.
    First I want to thank Senator Craig. I was not here when 
the questioning started, but somebody told me they were 
watching the television that showed what you all were doing. I 
do not think you all were smiling.
    [Laughter.]
    The Chairman. You were rough.
    Senator Bingaman. We will work on that.
    The Chairman. Right.
    Senator Craig. Mr. Chairman, uno poco.
    The Chairman. You are doing a little better. What we are 
saying is we want to be tough on you, but we do not want you to 
have to frown too much. So we want a smile. I thank Senator 
Craig for taking over in my stead.
    I want to ask Senator Thomas, you might have to do it a 
little bit for me again. I have to do one other thing, but I 
will be back.
    I am not going to ask any questions, but I am going to tell 
you, Mr. Rey, with reference to the Valles Caldera, I think it 
may be something that you ought to look at what you think they 
are doing to become self-sufficient. They think they are 
trying. We think they are trying. But you might objectively say 
we do not think they are doing some of these things that could 
have been done. It might be more offensive to do it than not to 
do, but it might be helpful.
    I myself have thought they should do some things they are 
not doing. Maybe Senator Bingaman has. You know, we are trying 
to get there. The law does not say next week or next month. If 
you read it carefully, it says eventually.
    So I just get that to you from my own advice, my own 
thoughts.
    Senator.
    Senator Thomas. Thank you, Mr. Chairman. Thank you, 
gentlemen.
    It is not easy to deal with this thing. Someone said it is 
kind of like going to heaven. We all want to go, but we do not 
want to do the things necessary to get there. That is kind of 
the same with the deficit. We want to reduce it, but we do not 
want to do what is necessary to cause that to happen.
    One of the cuts, as I understand, is State and Private 
Forestry which includes payments for volunteer fire 
departments. Is that the case and is not that a little tough 
not to be able to do that?
    Mr. Bosworth. There are two parts to that. There are 
dollars that go for volunteer fire departments that are in 
communities that are generally less than 10,000 people and then 
there are dollars that go to the States for fire assistance for 
the larger communities.
    Our budget would keep the volunteer fire departments the 
same.
    Senator Thomas. I see.
    Mr. Bosworth. We would not be taking the cuts there. The 
cuts would be in the dollars that go to the State for fire 
assistance for the larger communities.
    The Department of Homeland Security has a very large grant 
program that will also focus on communities and fire 
departments in larger communities, somewhere upwards of $700 
million.
    We would be working with the Department of Homeland 
Security in helping identify where some of those dollars would 
go in those larger communities.
    Senator Thomas. Good. As you know, there has been some 
discussion and we passed something on the demonstration fee. 
There is a good deal of concern about fees and what sort of 
facilities are identified. I notice you have that as an income 
factor.
    Have you decided what the criteria are going to be for 
charging fees on the Forest Service?
    Mr. Bosworth. No. We have not completed that portion yet. 
One of the things that we would be doing is we are still 
looking to see about establishing recreational advisory 
councils and they would help us set the criteria on specific 
areas. We are currently working on developing the specific 
criteria that would apply and there are several parts to it.
    What we want to do with that is to make sure that we are 
doing this in a way that people who are going to be using the 
national forests will support the fees. We will then make sure 
that we are putting the revenues back into the places where we 
collected the dollars and make sure we are doing improvements 
that people want, that we are not just picking those things 
ourselves.
    Senator Thomas. Some visitors' improvements and so on?
    Mr. Bosworth. Well, yes. There are a lot of things that the 
public would like us to work on and sometimes we think 
something different ought to be worked on. We need to pull 
those two things together much closer.
    Senator Thomas. Okay. Budget cuts in land management 
planning. I don't know exactly what that means. You indicated 
maybe doing something to reduce the length of these forest 
plans. Is this a factor in that?
    Mr. Bosworth. Well, we have a final planning rule that we 
came out with in December. That planning rule calls for some 
fairly significant changes. Within that planning rule, we also 
have a proposal to use categoric exclusions for forest plans.
    The whole notion is that what we would do is you would 
lessen the amount of time up front doing analysis and 
developing alternatives. We would reduce that amount of time 
and instead we would do more work in terms of monitoring and 
independent audits on the back side so that we can make 
adjustments based upon what we know.
    In the past, I believe we spent way too much time trying to 
guess what might happen under every alternative rather than 
actually going out and monitoring what is taking place. We 
should then be making adjustments based upon that and doing it 
in a way where the public is heavily involved and have 
independent auditors look at our work.
    That should shrink the length of time down significantly 
that it takes us to do a forest plan. We believe that we will 
be able to revise forest plans in 2 to 3 years as opposed to 8 
to 10 years.
    Senator Thomas. 8 to 10 years. I hope so.
    I have been spending quite a bit of time on the endangered 
species thing and too often that is being used as a land 
management tool and it does not seem as if the agencies 
necessarily have worked together as closely as they might with 
respect to that.
    But my time is over. I just urge you to work on the 
endangered species so that those decisions can be more clearly 
made. Thank you.
    The Chairman. Thank you.
    Senator Wyden.
    Senator Wyden. Chief, like others on this committee, I 
really put my heart and soul into the forest health 
legislation. I basically did not even leave the floor of the 
Senate while we were considering it.
    I will tell you I am very troubled by the approach that you 
all are taking and it is both in terms of the numbers, and I 
will go through those, but also even in terms of the way you 
describe the agency's work.
    Even during the course of the debate, I thought we were 
finally making some headway in terms of changing our approach 
with respect to fires. We were not going to put all the focus 
on suppression, but we were going to go into these key kinds of 
areas, rehabilitation and restoration.
    And even when you were here during the course of the 
legislation, you talked about fire plans, you talked about the 
number of acres being treated in communities. And today you 
basically told us we were back to the old days. You talked 
about knocking back fires and those were your words, not mine. 
99 percent of the fires knocked back.
    And certainly the numbers reflect the way that you have 
described it as well. I mean, the budget shifts the money again 
into suppression and away from rehabilitation and restoration.
    And so why don't you give me your take on it because I want 
to make this bipartisan wall work. We have 80 votes and we did 
not get 80 votes by accident. Senator Craig, all of my 
colleagues here, we wanted to make a dramatic shift.
    And now both in terms of the budget numbers and certainly 
just the way you have described it, it just looks like we are 
going back to the old days. We are going backward, not forward.
    Mr. Bosworth. Senator Wyden, I don't agree. I do believe 
that our budget proposal----
    Senator Wyden. You did not describe it differently 2 years 
ago? I will bring you the words. You talked about acres treated 
and you talked about community fire plans and today you talked 
about knocking back 99 percent of the fires.
    The budget numbers have shifted. So both in terms of the 
way you described it and the budget numbers, there has been a 
change. Is that wrong?
    Mr. Bosworth. The best way to reduce the amount of fire 
suppression is to do the kinds of fuels treatment work that we 
need, particularly in and around communities, so that we can 
reduce the fire hazard in those communities. That is the best 
long-term way in my view to reduce that whole chunk of fire 
suppression dollars.
    In the meantime, we are going to continue to request a 10-
year average in terms of our fire suppression dollars so that 
we can help protect communities.
    Our focus has to be on healthier forests. It has to be on 
reintroducing fire into some of these fire-adapted ecosystems 
in a way that we can control it and maintain it using fire.
    We allow far more fires to burn today than we have in the 
past. In terms of in the back country where we have fire 
management plans, we allow fires to burn for purposes to 
improve the health of those forests.
    So, in fact, I believe that we----
    Senator Wyden. But the budget numbers, Chief, contradict 
that statement. There has been a cut in cooperative fire 
assistance by $31.6 million. That is 30 percent. A cut in 
Forest Health Management, a cut in Cooperative Forestry, a cut 
in State and Private Forestry.
    I mean, I want to work with you and that is why we did 
pursue a bipartisan strategy in the forest health area. But 
those are the numbers. The numbers are a 32--in fact, it was 
even higher. Excuse me. I misstated it. It is at $32 million, a 
54-percent cut in Cooperative Fire Assistance.
    I mean, those cooperative programs are the places where we 
are going to carry out the new and bipartisan vision and they 
are all being cut 30, 40, and 50 percent.
    Mr. Bosworth. Much of the Cooperative Fire Assistance to 
the States is for dollars that go to fire departments in 
communities for fire suppression.
    We also have the opportunity to take a percentage of our 
hazardous fuels dollars and grant that to communities to do 
work on private land from our hazardous fuels account. We are 
proposing to increase by $18 million our hazardous fuels 
dollars. Again, a portion of that can be granted to communities 
to do work on private land.
    So there are a number of areas, a number of places where we 
believe that we can do work on private lands to help. Through 
our community fire planning process, we work together with the 
communities to decide and identify those places where we can 
strategically locate our treatments to help protect the 
communities.
    That is a big part of our program. Those are all things 
that we were not talking about 4 or 5 years ago.
    Mr. Rey. In fairness to the Chief, the 99 percent success 
rate on initial attack was my statement. That was in response 
to the hearing we had last year after we grounded the air 
tankers when I think most of the members of this committee 
thought we were going to leave the forests to burn.
    My point was that we were more successful with a 
reconfiguration fleet than we had been the previous year. The 
fact that we are successful in extinguishing fires on initial 
attack has no bearing on the fact that we want fires to burn 
where we know that they can burn safely and within 
prescription.
    We are committed to doing more of that and we have done 
more of that. The acres burned under prescription this past 
year were, as were the acres treated, an all-time record.
    You are correct, Senator, that if you look at the way we 
propose to fund the Healthy Forests Initiative, we have in this 
budget proposal emphasized treatment on Federal land as opposed 
to treatment on non-Federal land. And we did that for two 
reasons.
    First, we are the only ones who are paying to treat Federal 
land. There is nobody else doing it.
    Second, the Federal lands by and large are in worse shape 
from a fuels standpoint than the non-Federal lands. The Federal 
lands within the wildland-urban interface are among the worst 
Federal lands.
    And there is probably a third reason and that is that in 
many of these other line items, the ones that you indicated, 
there are other finances available through other Federal 
Government programs to provide assistance to State and local 
governments to do that work, in some cases more efficiently 
than our delivery program.
    The Chairman. Okay. Thank you.
    Senator Thomas. Mr. Chairman, can I just ask for something 
for the record?
    The Chairman. For the record, absolutely.
    Senator Thomas. Chief, what I would like, because I do not 
share the view that there are other programs, I would like you 
to give me a detailed list of the other areas of Federal 
funding where you can offset the cuts that are in your budget 
because I have outlined the cuts in cooperative forestry. I do 
not believe the funds are available in other areas, but I want 
to be fair to you all. I would like a list. Can I have that 
within 30 days?
    Mr. Bosworth. We can get you that list. I do not want to 
imply that for every dollar that we are reducing that there is 
a dollar available somewhere else, but it will offset some of 
that.
    Senator Thomas. Okay. That will be fine. Thank you.
    [The information follows:]
               examples of usda programs that can assist 
                   forest-dependent rural communities
    USDA's Rural and Community Development (RD) programs can address 
priority needs in rural areas, including assistance to rural 
communities and forest-based industries, through several programs. 
These programs focus largely on issues concerning agricultural land. 
The following summarizes USDA programs, other than Forest Service 
programs, that could provide financial and technical assistance to 
forest based rural communities:

------------------------------------------------------------------------
                                                           Community
           USDA Agency                  Program       Development Issues
------------------------------------------------------------------------
RD-RBS*.........................  Rural Business      Promote
                                   Opportunity         sustainable
                                   Grants.             economic
                                                       development in
                                                       rural communities
                                                       with exceptional
                                                       needs. Small
                                                       total number of
                                                       awards, given to
                                                       both agriculture
                                                       and forest based
                                                       communities.
RD-RBS..........................  Rural Business      Finance and
                                   Enterprise Grants.  facilitate
                                                       development of
                                                       small and
                                                       emerging private
                                                       business
                                                       enterprises.
                                                       Grants do not go
                                                       directly to
                                                       businesses.
                                                       Primary natural
                                                       resource use is
                                                       agricultural.
RD-RBS..........................  Rural Economic      Grants to
                                   Development Loans   establish a
                                   and Grants.         revolving loan
                                                       fund for
                                                       community
                                                       development,
                                                       telecommunication
                                                       s, job training,
                                                       medical care,
                                                       etc. No focus on
                                                       forestry or
                                                       natural
                                                       resources.
RD-RBS..........................  Intermediary Re-    Grants for
                                   lending Program.    intermediaries to
                                                       re-lend for
                                                       business
                                                       establishment or
                                                       expansion, job
                                                       creation or
                                                       expansion, or
                                                       community
                                                       development
                                                       projects. No
                                                       focus on land
                                                       management or
                                                       natural
                                                       resources.
RD-RBS..........................  Business and        Stimulates rural
                                   Industry            economies with
                                   Guaranteed Loans.   80% guarantee of
                                                       a loan made by a
                                                       commercial
                                                       lender. Used for
                                                       equipment, real
                                                       estate, debt
                                                       refinancing.
                                                       Focused on
                                                       agriculture.
RD-RBS..........................  Cooperative         Grants to improve
                                   Development         the economic
                                   Grants.             condition or
                                                       rural areas
                                                       through the
                                                       development of
                                                       new cooperatives
                                                       and improvement
                                                       of existing
                                                       cooperatives.
------------------------------------------------------------------------
* Rural Business-Cooperative Service


    The Chairman. Okay. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Let us stay on the fire subject for just a moment. As you 
know, we had a horrific fire season last summer in Alaska. We 
lost 6.5 million acres. It was the worst fire season on record 
for the State since we have been recording this.
    The notes that I have here indicate that there were 703 
fires. For some reason, I am remembering it as a much larger 
number. But any way you cut it, it was huge. It was a 
devastating loss for us.
    You know many of those issues. You know that we have got a 
hearing coming up on how all the agencies that were involved 
worked together or what worked right and what did not work 
right.
    But we have got some issues up north that cause me to 
believe, coming from a very unscientific approach, that we are 
going to have another tough fire year. Our temperatures in the 
interior are increasing.
    We are still dealing with spruce bark infestation, although 
perhaps not at levels that we have seen in the past, but I 
think it is still going to be tough year. And I think other 
Alaskans feel the same.
    And, quite honestly, the folks in the interior would really 
like to be able to breathe the air during the summer months 
instead of looking out through a smoke-filled haze.
    So I was somewhat interested in your map that is looking at 
the seasonal wildfire outlook February through August 2005. 
Alaska is all white. I am hoping that perhaps your 
meteorologists know something different and that you are not 
thinking that Alaska is going to have a tough fire season, but 
maybe we just were not included in the map. But we need to be 
prepared.
    So my question to you in looking at some of the cuts that 
we have--and this was raised by Senator Wyden and some others, 
zeroing out the volunteer assistance. Certainly in many 
instances up north, our volunteer fire departments are the 
first responders to many of these Federal land fires.
    I just have real serious concerns about where we are going 
to be and how we work with the Alaska communities that are 
potentially at risk to reduce the fire risks that I think are 
going to be real again this coming summer. So if you could just 
address some of those.
    Mr. Rey. Okay. As to your first observation, Alaska is 
white in this particular iteration because our predictive 
models pick up Alaska a little bit later in the year given that 
the cold weather stays longer up there.
    So it will be probably another couple of weeks before we 
have a reasonable prognostication of what the Alaska fire 
season is going to be like, although most of our fire people 
agree with your suggestion that it could well be another 
difficult fire season.
    Second, as the chief indicated in response to Senator 
Wyden, we have targeted our cuts away from the volunteer fire 
departments. So the money that we retained in those accounts, 
the funded volunteer fire fighters are going to stay in those 
accounts for that purpose.
    What we hope to do with the needs for large fire fighting 
organizations is to work with the people at FEMA who have a 
large account for fire fighting assistance, upwards of $700 
million, and make sure that we coordinate our efforts so that 
we are addressing the primary wild land fire fighting needs 
among larger communities which is where our cuts would be most 
heavily felt.
    Senator Murkowski. On the Tongass, the point was made 
earlier about the road funds. We recognize that right now these 
roads have to be constructed to the same specification as a 
Federal highway which increases the cost and reduces Forest 
Service timber receipts.
    Now, in southeastern Alaska, we look at those timber roads 
and we certainly recognize that these do not even come close to 
looking like a Federal highway. We need the roads, but the cost 
of building them to this standard is making timber sales in 
certain areas uneconomic and impairing the viability of, as you 
know, an already struggling timber industry.
    Why do we have to construct these roads to this high 
standard?
    Mr. Rey. Well, there are two reasons. But those reasons 
aside, this is something we are looking at. In the past, many 
of the roads that were being constructed were not simply timber 
roads. They were part of what we wanted to establish as part of 
the arterial network or the transportation network for 
southeast Alaska. Indeed many of the roads in existence on 
Prince of Whales Island today started as timber roads as an 
initial matter.
    Now they do not serve that function, but they do serve an 
important function in allowing people to drive between Craig 
and Thorne Bay, for instance. That need is starting to diminish 
as that system has been established. So a smaller number of 
roads are going to be built to that standard for a longer-term 
purpose.
    Senator Murkowski. Do you see us getting away from that 
standard though?
    Mr. Rey. Yes. One of the things we are looking at is being 
able to scale down some of the road standards for roads that 
are not going to have a longer-term or subsequent use after the 
timber sale occurs. So that is something we are working on with 
the region in southeast Alaska.
    Senator Murkowski. I look forward to working with you.
    Mr. Rey. Thank you.
    Senator Murkowski. Thank you.
    The Chairman. Senator Smith.
    Senator Smith. Thank you, Mr. Chairman.
    Chief Bosworth, President Bush has frequently vocalized his 
support for full implementation of the Clinton forest plan 
which calls for 1.1 billion board feet. The Forest Service has 
changed the survey and management requirements to make the plan 
work better. That assumes it is going to be properly funded.
    Do you believe that your budget does provide the funding 
sufficient to carry out the President's commitment to the 
Northwest Forest Plan?
    Mr. Bosworth. Yes. I believe the budget will--I guess I 
would not want to say a hundred percent, but the budget will be 
focused. We will be getting the dollars mainly through our 
regular forest products appropriation that would allow us to 
continue to implement the Northwest Forest Plan.
    There are also a number of efficiencies that were not 
really calculated into some of our original projections when we 
put together the budget justifications.
    Let me speak more to the whole program, not just the 
Northwest Forest Plan.
    I believe our budget justification shows that with those 
dollars that we would be showing somewhere in the vicinity of 
1.8 or 1.9 billion board feet. More recent analysis, now that 
we have some of these different tools, show that we would be 
approaching more like 2.4 or 2.5 billion board feet, we 
believe.
    So there are a number of areas where we think that we will 
be able to do the work that needs to be done in all parts of 
the Northwest Forest Plan.
    Senator Smith. Thank you.
    Mr. Rey, next week the Federal court resumes consideration 
of the Biscuit Fire Rehabilitation Project 2\1/2\ years after 
the fire.
    Does the Forest Service budget assume any revenues from the 
salvaged Biscuit fire?
    Mr. Rey. I don't believe our baseline projection assumes 
any revenue. So anything that comes in as a consequence of 
harvest activity on the Biscuit salvage would be in excess of 
the baseline revenues.
    We expected that there would be a considerable amount of 
litigation surrounding the Biscuit Fire Recovery Project. Our 
expectations were met and perhaps exceeded. And, therefore, we 
will wait and see how the courts play this out. So far, we have 
been on a winning streak there and I hope that streak 
continues.
    Senator Smith. If, however, the court blocks the project 
from moving forward and no revenues are derived from salvage, 
how will the Forest Service pay for the restoration work?
    Mr. Rey. We will either have to forego some of the 
restoration work or we will have to reprogram funds from other 
areas or other accounts to do that work. The Biscuit Fire 
Recovery Project is a holistic project with a substantial 
amount of recovery work that is dependent upon revenues from 
the sale of that portion of the burned timber that was both 
merchantable and reasonable to harvest from an ecological 
standpoint.
    Senator Smith. Thank you, gentlemen.
    The Chairman. Thank you very much.
    I gather that Senator Salazar at least indicated he might 
return. How about Senator Bingaman?
    Senator Craig. He may.
    The Chairman. All right. Well, I am going to suggest now 
that----
    Senator Murkowski. I have one more question. I appreciate 
the opportunity to come back again to the Tongass issue.
    As you know, we have only got one harvest and 12 percent of 
commercial timber on the Tongass in the past hundred years. And 
as we look to the Tongass land management plan, it provides 
that a maximum of 267 million board feet can be harvested from 
the Tongass, yet we are concerned, primarily the Alaska Forest 
Association is concerned that the Forest Service continues to 
plan for only 100 million board feet annually and is able to 
deliver only between about 50 to 70 million board feet.
    We don't have any threatened or endangered species on the 
Tongass and yet we have, through the land management plan, we 
have got several constraints, reserves, buffers that do limit 
the economically viable timber that can be made available.
    So the question that I have to you this morning is whether 
the Forest Service is committed to preserving and enhancing the 
timber industry in southeast and whether in your view it is 
appropriate to revisit or to rethink some of the restrictions 
that currently exist out there as they relate to the Tongass.
    Mr. Rey. The short answer to the first question is yes. The 
short answer to the second question is that we have embarked on 
the 5-year review of the Tongass Land Management Plan. The 
issues you described will be part of that review.
    You are correct. There are no threatened or endangered 
species or at least terrestrial species on the Tongass. The 
stellar sea lion is within the range of the Tongass.
    There is, however, a very robust population of 
environmental litigants in southeast Alaska, as there is in 
Oregon. Much of the complexity in fulfilling the President's 
commitment to implement the Northwest Forest Plan is comparable 
to the complexity associated with fully implementing the 
Tongass Land Management Plan. That is, moving sale offerings 
through the appeals and litigation processes.
    Senator Murkowski. And as we recognize, that is incredibly 
tough. I am sure you are aware we are attempting to get a small 
veneer plant in the Ketchikan area up and going. Some of the 
tactics that have been used of late to pressure the individual 
that wants to move forward with this in my opinion are not only 
inappropriate, wrong, short-sighted, but really very offensive 
in their approach.
    We have a management plan out there that allows for this 
and yet it is not just the litigation. It is other efforts by 
individuals that will seek to literally shut down the Tongass 
for any viable timber harvesting. That is what we deal with.
    Mr. Chairman, thank you for the latitude of questions.
    The Chairman. Thank you very much.
    I will talk to you on the floor during the vote about a 
couple of things that pertain to our trip and a couple of other 
things about the budget.
    First I want to thank you all and apologize for not having 
been here myself. I am very pleased to have you here.
    Secretary Rey, I am particularly happy to have you where 
you are. I want to offer just a thought.
    Cutting discretionary spending in the manner that is being 
recommended there are lots of feelings up here about what we 
should cut, what we should not. There is even some feeling 
whether discretionary cuts really are so valid over the long 
haul in terms of reducing the deficit.
    But I would urge that--and we are having hearings so we can 
find out. But we do not pass any authorizing bills anymore up 
here just because we cannot get them done.
    So you are going to be in appropriations where the 
decisions are made with reference to the priorities that you 
have established. I know you have gone through all this with 
OMB, but I hope in that process, I know the chairman and 
ranking member will be interested.
    I think you have to view this very carefully in terms of 
the things we are cutting versus things that are really going 
to come back and haunt the Government. All of these are not 
insignificant expenditures. Some are clearly not needed. And I 
hope we have hit those rather than some that are very much 
needed. And I think it is hard to tell which.
    Mr. Bosworth, you have a terrifically difficult job. 
Everybody wants more and better forests and I think they equate 
how much we give you to spend with that. I am not sure that is 
correct. I think you are impacted by a lot of things.
    What you can and cannot do by law probably has as much 
impact as what we spend on you or do not give you to spend. But 
we cannot fix that, right?
    So I just tell you that some of us know. Some of us are on 
that Appropriations Committee. And whatever we say here will 
have an impact only if we can affect appropriations right. 
Otherwise, from here, they go to Appropriations and all this 
talk is over with, right?
    So I want to just ask you a couple of things about New 
Mexico, if I might. With reference to Santa Fe, I have a couple 
of things that I need answered.
    Congress has funded a program through the Forest Service to 
thin the watershed that provides 40 percent of the water for 
the city of Santa Fe. The appropriations total about $5.5 
million, something in that order, over 4 years.
    First I want to tell you I have been very impressed at how 
you have reduced the potential fire danger which is a terrific 
problem with the water availability for Santa Fe.
    Could you tell me how many acres have been treated and what 
is the cost per acre and are there any major components of the 
costs of thinning this area and how many acres remain and what 
is estimated for the completion?
    Mr. Bosworth. I would like to get that for you and I can 
get that pretty quickly. I do not have it with me today. That 
was an area that I have been also watching. The costs were 
fairly high for a period of time and we were working at getting 
some of those costs per acre down. But I am interested in it.
    The Chairman. Give it to the ranking member on the 
Committee, please.
    Mr. Bosworth. We will do that.
    [The information follows:]

    The Santa Fe watershed project includes thinning, prescribed fire, 
and monitoring activities. Final completion of the hazardous fuel 
reduction project will be completed by FY 2007, dependent upon weather 
and burning conditions.
    To date, 3,638 acres (57%) have been thinned. An additional 1,763 
acres (28%) will be thinned during FY 2005. The remaining 1,000 acres 
(15%) are planned to be thinned during FY 2006.
    Completion of the project will cost approximately $1.2 million; 
$1.1 million in FY 2006, and $100,000 in FY 2007. This includes 
thinning, prescribed fire, and monitoring costs associated with the 
project.
    Major components of the costs include:

  <bullet> A Forest Service contract with Forest Rehab of Libby, MT to 
        carry out the thinning work for the project at a cost of $945/
        acre.
  <bullet> Pile burning accomplished by Forest Service personnel at 
        approximately $50/acre. All of the thinning projects require 
        pile burning the year following the thinning operation.

    The Chairman. Then I need to ask you, has the Forest 
Service identified any other major watersheds that are at risk 
for catastrophic fire? We happen to have one. It is clear and 
obvious, but maybe there are some others. Could you provide us 
with information in that regard?
    Mr. Bosworth. Yes, we will. In fact, there are other 
watersheds in New Mexico that are at high risk of fire.
    The Chairman. Would you also tell us that you found them 
and is there any effort being made to do something about them?
    Mr. Bosworth. I will do that.
    [The information follows:]

    The Forest Service is engaged in collaborative efforts to 
prioritize communities and watersheds at risk in New Mexico and other 
States. Project development is taking place through the Community 
Wildfire Protection Plan (CWPP) process underway in many New Mexico 
communities and counties. The Forest Service is an active participant 
in CWPP development; the community has the final responsibility to 
complete the CWPP.
    Several watersheds have been identified through collaborative 
efforts, including those associated with the communities of Gallinas, 
Cloudcroft, Ruidoso, and the counties of Alamogordo, Catron, and Grant. 
Some of these areas have fully developed CWPPs and others are underway. 
The Forest Service is working with these communities to develop 
restoration plans. Some projects have already occurred in areas under 
these CWPPs. The flexibility to prioritize projects on an annual basis 
is a critical component of a positive and effective relationship with 
communities.

    The Chairman. I will not talk about the Valle Vidal and the 
issues that have been raised up there with reference to whether 
there is natural gas or the like there, but perhaps we can 
converse on it sometime.
    Mr. Bosworth. I would be happy to do that.
    The Chairman. Lincoln National Forest, you are aware of 
what that is. There is an Apache sawmill up there.
    Mr. Bosworth. Yes.
    The Chairman. You are aware of that?
    Mr. Bosworth. Yes.
    The Chairman. You can look it up and give us the answer. We 
would like to know what steps you are taking to deal with the 
health of the forest in the Lincoln National Forest and also 
what can the national forest do to contribute to the existence 
of that sawmill, if anything. Would you do that for us?
    Mr. Bosworth. I would be happy to do that as well. There 
are a number of things that we are doing that we can do. But I 
will get you some real specific answers.
    The Chairman. But you are doing something?
    Mr. Bosworth. Yes.
    The Chairman. You know about it?
    Mr. Rey. We are working with the tribe very closely right 
now.
    The Chairman. Okay. Thank you very much.
    And also how much additional timber will you be offering 
this year as compared to last year, speaking of this area?
    Mr. Bosworth. For just that specific forest or the Lincoln 
National Forest?
    The Chairman. Right. And I would like you to provide me 
with a specific amount of funding that the region will make 
available in the 2006 budget to support the county's 
partnership and restoration, the CPR, in New Mexico and 
Arizona.
    I read somewhere that it was cut out or almost done away 
with or--no?
    Mr. Rey. No. We have continued to fund that effort pretty 
consistently.
    [The information follows:]

    The Forest Service is doing a lot to address with forest health 
issues on the Lincoln National Forest (NF), as well as support the 
volume needed by the Apache Sawmill in White Sands. In FY 2005, the 
Lincoln NF is using a hazardous fuels budget of approximately $3 
million to treat 15,000 acres with prescribed burning and 15,000 acres 
with thinning. A capability assessment was prepared for the sawmill, 
which showed a capacity of about 6 million board feet. The Lincoln NF 
is preparing approximately the same volume of 5.5 million board feet as 
it prepared last year.
    In addition, in FY 2005 the Forest Service made $100,000 available 
to the Counties Partnership on Restoration (CPR) in New Mexico and 
Arizona. The FY 2006 President's Budget does not include specific 
funding for the CPR.

    The Chairman. Is that not the one that Senator Bingaman was 
very interested in?
    Voice. It is a little different. The CFRP.
    The Chairman. Did he ask about this already?
    Voice. No, he did not.
    The Chairman. Okay. Well, what is the name of that?
    Voice. CFRP.
    The Chairman. Should I just tell him to give us the 
information? Would you give us the information on the CFRP?
    Mr. Rey. Yes. That is the Collaborative Forest Restoration 
Partnership.
    The Chairman. Senator Bingaman initiated that and I----
    Mr. Rey. In a piece of legislation, right.
    The Chairman. Can you give him that so we would have that 
too?
    Mr. Rey. Right.
    [The information follows:]
              the community forest restoration act of 2000
    The Community Forest Restoration Act of 2000 (Title VI, Public Law 
106-393) established a cooperative forest restoration program in New 
Mexico to provide cost-share grants to stakeholders for forest 
restoration projects on public land to be designed through a 
collaborative process (the Collaborative Forest Restoration Program). 
Projects must include a diversity of stakeholders in their design and 
implementation, and address specified objectives, including: wildfire 
threat reduction; ecosystem restoration, including non-native tree 
species reduction; reestablishment of historic fire regimes; 
reforestation; preservation of old and large trees; increased 
utilization of small diameter trees; and the creation of forest-related 
local employment. The act limits projects to four years, and sets forth 
cost limits and provisions respecting: collaborative project review and 
selection; joint monitoring and evaluation; and reporting. The act 
authorizes appropriations of up to $5 million annually, and directs the 
Secretary to convene a technical advisory panel to evaluate proposals 
that may receive funding through the Collaborative Forest Restoration 
Program.
    The FY 2006 President's budget continues funding at $5 million.
    The program is designed to encourage different organizations to 
collaborate on the design, implementation, and monitoring of 
restoration projects on a broad spectrum of public and tribal lands. 
Grant money is available for projects on Federal, State, tribal, 
county, or municipal lands in New Mexico.
    One of the goals of the Collaborative Forest Restoration Program is 
to provide an alternative to appeals and litigation the Forest Service 
typically faces on these projects by bringing opposing groups to the 
table. By working together to apply for these grants, small business 
owners, conservation and environmental groups, community groups, 
tribes, universities, and other organizations can help reduce the 
threat of wildfire, improve watershed conditions, and bring jobs and 
job training to local communities.
    Tribes, State and local governments, educational institutions, 
private landowners, conservation organizations, non-profit groups, and 
other interested public and private entities are encouraged to apply 
for grants. Collaborative partnerships are sought to create local 
employment and/or training opportunities while accomplishing forest 
restoration objectives.
    In FY 2004, the Forest Service received 36 grant proposals in New 
Mexico requesting more than $10.9 million. A technical advisory panel 
reviewed the proposals and made recommendations on the proposals that 
best met the objectives of the program. The Forest Service awarded 14 
grants totaling approximately $4.1 million.

    The Chairman. Okay. I think I have to go vote. And what I 
am going to do--it is 11:25. Even though we will not be asking 
you questions, can you wait for us for a little bit?
    Mr. Rey. Sure.
    The Chairman. Then we would not have to call you back. I am 
going to say whoever comes back from whichever side, reconvene 
the meeting. I think the Senator Salazar or Senator Bingaman. 
But I want to set a deadline, so we do not leave this open and 
so we do not ask questions indefinitely.
    So I am going to say that will happen, but we will close 
this meeting, whoever is here, and if not, I will come back and 
close it at 12:30. Is that fair enough?
    Thank you very much. We are in recess until a senator 
returns and then we will close this at 12:30. Thank you very 
much.
    Mr. Bosworth. Thank you.
    [Recess.]
    Senator Salazar [presiding]. Let me say this. This is not 
the first time that I get to chair a meeting. Today I gave my 
maiden speech on the floor talking about issues relating to 
rural America and I am delighted to have this opportunity to 
ask you a few questions at this hearing and then we will go 
ahead and we will conclude the hearing.
    I have a Colorado-specific question to start out with and 
that has to do with the White River National Forest Management 
Plan. What I wanted to ask you about with respect to that plan 
and the revisions that have been made of that plan is why the 
changes were made.
    I had some communication with some of your staff, with 
David Tenny this morning, and I look forward to the response to 
the questions that we asked of him this morning.
    But let me tell you what my concern is and see whether you 
can help me with this. The sense that I have gotten working on 
this matter and hearing from my constituents in Colorado, in 
the northwestern part of the State, is that there was a 
tremendous amount of energy that went into the creation of the 
plan which was approved by Chief Bosworth back in 2002.
    That plan was a plan that had involved thousands upon 
thousands of hours of public input. And the plan that frankly I 
think the people in northwest Colorado felt good about and yet 
decisions that have been made on the revisions to that plan 
seem to have come out of Washington without the kind of 
consultation and input from the local community that should 
have been there.
    And here is frankly my concern. My concern is that this is 
not the only revision of a national forest plan that we are 
going to make. And so as we move forward, for example on the 
Gunnison or the Grand Mesa or any of our other forests in the 
State of Colorado, what is it that is going to keep those 
forest management plans in place once the planning process has 
been completed given what appears to be, at least from the 
ground at this point, an arbitrary and capricious decision 
frankly by someone in Washington to simply say that the forest 
plan had already been approved by the Chief of the Forest 
Service should be set aside?
    So I would like either Chief Bosworth or Assistant 
Secretary Rey to respond to that question for me.
    Mr. Rey. I would be happy to start and then the Chief can 
elaborate on that.
    The way our planning process works is that once a plan is 
completed, notwithstanding how many people participated in the 
comment period and how much public involvement there was, there 
is a right of administrative appeal.
    The final decision to approve a plan is not made by the 
chief. It is made by the regional forester, in this case 
Regional Forester Cables in Denver.
    If the plan is appealed, the chief is the reviewing officer 
that has to review that appeal in accordance with our 
regulations and issue a decision to either uphold or reverse 
and remand the plan back for further work.
    In addition, if the appellants are dissatisfied with the 
chief's decision, they have the opportunity to seek a second 
level of review at the department level, in my office, and 
either I or one of my deputies then becomes the second 
reviewing official to review the plan.
    In the case of the White River plan, there were a number of 
appellants. Those appeals were reviewed. The chief was the 
first reviewing officer. He made a decision and upheld in part 
and remanded in part. Some appellants requested a second 
review. My deputy, Dave Tenny, who you met with this morning, 
did that review and remanded on some additional issues.
    But the remands are not revisions of the plan. Now the plan 
goes back to the forest supervisor and whatever changes are 
subsequently made will go through a notice and comment period. 
And that is the way our regulations work.
    So there is nothing arbitrary about it or capricious. 
Certainly, if somebody wants to challenge the outcome of the 
proceeding, they have that right in Federal District Court and 
can avail themselves of that particular argument if they think 
so. But it is an on-the-record review which has been completed 
now.
    The next step will be for the forest supervisor to take 
both the decision of the Chief and the decision of Deputy Under 
Secretary Tenny, make some changes to the plan in accordance 
with the remands, and then propose those changes for an 
additional round of public comment.
    Senator Salazar. I appreciate your explanation as to the 
process and I know the process well and I know how it works. 
And I know ultimately the legal remedies that are available to 
somebody who is challenging the decisions that are being made.
    In this particular circumstance, you have the chief of the 
Forest Service having made a decision on the plan and that 
decision in part has been reviewed and changed by Deputy 
Secretary Tenny.
    Can you summarize for me what the impetus was for those 
changes and the specific changes that he ordered to be made in 
the plan?
    Mr. Rey. Sure. The impetus was that he was exercising the 
authority provided for in the Forest Service Appeals 
Regulations to undertake a review of a chief's decision.
    The substance of them fell into two broad areas and we can 
give you a copy of the decision which would get much more 
specific.
    One went to how water rights issues are going to be 
addressed to bring the plan into consistency with the water 
rights policy that we have subsequently developed with the 
State of Colorado through a Memorandum of Agreement.
    The second was in regard to provisions to protect the lynx 
which is an introduced species in Colorado. And there again, we 
wanted to bring the provisions of the plan in concert with the 
Southern Rockies conservation strategy that is being developed 
for the lynx. We felt that the plan was at some variance with 
what was happening on other national forests.
    What we think will result is a better mechanism for 
recognizing the State's role in water rights through the 
memorandum of understanding that was developed with Colorado. 
With regard to the lynx, we think we will end up with a better 
protection plan that will protect areas where the lynx truly 
occupies habitat.
    Now both of those issues are going to be taken back to the 
forest. The plan will be amended accordingly and then the 
public will have an opportunity to comment on whether they 
prefer this or whether they find it less desirable. But they 
would not be excluded from that.
    Senator Salazar. Let me make a comment. I think it is very 
important for you, Under Secretary Rey, or Chief Bosworth or 
Deputy Under Secretary Tenny to go to Colorado and to explain 
what has happened here in the same way that you were explaining 
it to me here today.
    Regarding the two substantive issues with respect to the 
decision, it seems to me that the direction of working with 
Colorado to try to address the water issues and the values 
associated with a forest in recognition of state law and 
working in concert with the Colorado Water Conservation Board 
is an important initiative for our country.
    In years past, I had conversations with your predecessors 
about the fact that the Forest Service had spent some $70 
million on litigation concerning reserved rights in my state, 
in the State of Colorado.
    My suggestion at the time to the forest and USDA was that 
what we ought to do is to try to figure out ways in which we 
could work in concert with the state agencies to try to protect 
those forest values because I thought that would be a much more 
cost-effective way. If we are spending millions of dollars in 
litigation, it seems to me it would be better to be spending 
that money instead on improving the values that the forest 
seeks to improve.
    Regarding the second matter relating to the lynx, what I 
understood from the meeting this morning is that with the 
Southern Rocky Mountain plan that is under consideration, it 
was felt that it was better to integrate what was happening in 
the White River National Forest with what is happening more 
regionally, I think more ecosystem wide, since I am sure the 
lynx does not recognize the boundary of where the White River 
National Forest ends and where it does not.
    So I think it is very important for the people in my State 
to understand what it is that is happening there. And so I 
would ask you to participate with the individuals that I met 
with this morning in coming to Colorado and making sure that 
there is this input from people up in the northwest part of 
Colorado.
    I was in Routt County in the last several days and a number 
of ranchers and other people frankly were very upset about what 
had happened here because they felt that there was some 
political appointee in Washington, D.C. that was undoing years 
and years of work. There had not been, I think, the kind of 
explanation and communication with them that would have given 
them the understanding that you are giving here today.
    Mr. Rey. We would be happy to do that. One of the 
advantages of these hearings is we get invited to Colorado and 
New Mexico. It is a great opportunity.
    Senator Salazar. We have a lot of snow in Colorado, so you 
are welcome to come up to the Steamboat.
    Let me just ask one other question and then we will go 
ahead and close the hearing. And that has to do with the 
streamlining proposal that you have on the time line for 
revisions on forest management plans.
    I know that some of the questions that were asked by 
colleagues on the committee earlier had to do with the sense 
that maybe it is taking too long. Your plan to try to get a 
revision to forest management plans in less time is an 
important thing for everybody to look at, given the fact that 
most people think it now takes too long.
    Talk to me just a little bit about what you are planning to 
do with respect to the streamlining of the effort on the 
revisions of forest management plans, if you can, Chief 
Bosworth.
    Mr. Bosworth. Yes. I would be happy to do that.
    We have been operating under a regulation or rule in the 
development and revision of our forest plans. The most recent 
rule was implemented in 1982. That is when the rule was 
established that we operate under now.
    During that period of time, during the 1980's and the 
1970's, we were doing entirely different kinds of work on 
national forest lands. We had a very large timber harvest 
program. We were not into the fuels treatment like we are 
today. We did not have the catastrophic wildfires that we have 
today.
    Over time, it evolved where it was taking us 6 or 8 or 10 
years to develop a revision because of all the processes we 
were going through. We needed to revise our rule so that we 
could look more to the future rather than to deal with the 
things we had been doing 20 years ago.
    The threats that face our forests in the future are things 
like catastrophic wildfire and invasive species and an 
increased recreation demand, loss of open space--some of those 
kinds of things.
    So we need a rule that will help us move into the future 
and also will be a rule that we can engage the public in more 
quickly and more effectively. And so that is what this rule 
does. There are several things that it will accomplish.
    I believe one is that it will improve the citizens' ability 
to participate in the forest plan revisions because of the fact 
that we will get them done quicker and people do not have to 
try to stick with it for 7 or 8 years.
    The only people that can stick with it are those people who 
are being paid to by the timber industry or the livestock 
industry or the environmental industry or someone. But a person 
down the street that just wants to go to the forest, they 
cannot do that. They cannot stick with it for that long. So 
that will help citizen participation.
    Also the rule requires adoption of an Environmental 
Management System which will be--for each forest, that will 
require an independent audit each year of that forest and the 
implementation of that forest plan. That independent audit can 
be done from outside the Forest Service or from outside the 
forest.
    That will be done by folks that will look at what we have 
accomplished that year in terms of implementing the forest 
plan, whether we did what we said we would do and whether we 
are getting the kinds of effects and outcomes that we said we 
would get.
    It will give us an opportunity to increase the amount of 
monitoring that we are doing as we implement. We can then make 
adjustments based upon what we learn together with the public 
about the implementation of those forest plans.
    So I believe it will result in better environmental 
protection as well as better public participation.
    Another aspect is that it has to be science based. These 
forest plans need to be based on the best science that is 
available, on the best knowledge that we have about how 
ecosystems interact. It calls for science reviews and 
consistency reviews of the work that we do in the development 
of the forest plan.
    So it is a significant change from where it had been in the 
past. There will be discomfort, I think, in some areas until 
people actually see how we are implementing them. I believe 
that people will like what they see after we have had a few 
years of implementation.
    Senator Salazar. What is the status of the rule at this 
point?
    Mr. Bosworth. At this point, the rule has been finalized 
and we are in the process of training people so that they can 
implement plan revisions under the new rule.
    When we came out with a final rule, we also came out with 
another proposal that is out for public comment. That proposal 
would be to categorically exclude forest plans from 
environmental impact statements.
    In other words, we would still do environmental analysis, 
but we would not develop a whole array of alternatives. We 
would work with the public to develop a forest plan, and when 
we make a decision to do a project and actually do a project on 
the ground, that is when we would actually do the environmental 
impact statement.
    Part of it is there is a big redundancy there. In our 
forest plans, we do not make a decision to do anything. We set 
standards and guidelines and goals. The decision to do 
something on the ground is made on a project-by-project basis.
    So that is the time when we need to do the environmental 
impact statement. And we believe we should be able to do a 
categorical exclusion for the plan itself which would 
significantly reduce the amount of time and the cost on the up-
front side of doing a forest plan.
    Senator Salazar. Thank you, Chief Bosworth.
    I would appreciate being informed in Colorado as you move 
forward with the implementation of the rule and specifically 
giving me and my office a heads up, if you will, as you move 
forward with any revisions on our national forests.
    I think for most of us who sit on this committee, national 
forests are so important for us because they comprise so much 
of the land mass of our state and they provide all the benefits 
that are provided to our respective States.
    But being kept abreast of what is going on as you move 
forward with forest planning within our eleven forests in 
Colorado is something that I very much would appreciate.
    Mr. Bosworth. We would be happy to do that.
    I should also point out that some cases, we have forests 
that are halfway or three-fourths of the way through developing 
forest plans using the old rule. Those forests will continue. 
Some of those will complete their plan revision using the old 
rule just simply because there are almost none.
    That may be the case in some of Colorado's forests. We will 
be happy to keep you informed on which ones will be done using 
the new rule and the ones that are going to be completed under 
the old rule.
    Senator Salazar. Under Secretary Rey and Chief Bosworth, I 
very much appreciate you coming here in front of the committee 
today and providing us the information.
    I ask unanimous consent to place the statements in the 
record including the full statements of Chief Bosworth and 
Under Secretary Rey and, two, to submit the questions for the 
record on behalf of our members and, three, that we will recess 
until 10 a.m. tomorrow for a hearing on the Department of 
Energy Budget with Secretary Rodman. Thank you and the meeting 
is adjourned.
    [Whereupon, at 11:45 a.m., the hearing was adjourned.]
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

   Responses of the Forest Service to Questions From Senator Domenici
                         facilities management
    Let me begin with the proposal to sell excess properties and to 
retain the revenues. As in past years, I assume these are small lots or 
buildings that the agency no longer has any need for. Is that correct?
    Question 1. Approximately how many of these properties are there 
and how much revenue are they likely to generate?
    Answer. Generally, properties slated for sale will be offices, work 
centers, or residences distributed throughout the country that are 
underutilized or no longer needed to support the Agency mission. Sale 
of these facilities can result in meaningful reduction in deferred 
maintenance backlog and provide funds for maintenance and 
reconstruction. The Forest Service anticipates there is at least $50 
million of facilities to be sold. The agency has not completed a 
thorough inventory of all the properties that may lend themselves to 
competitive sale so a total dollar value of facilities to be conveyed 
is not yet available. As facilities are sold, the number remaining to 
be sold will decrease over time to the point where Forest Service 
facilities are properly aligned with mission and organizational 
requirements.
    I note that you have proposed significant reductions in the Capital 
Improvements line items as well as Facilities Construction and 
Maintenance, Road Construction and Maintenance, and Trails Construction 
and Maintenance. If I follow your proposal you will sell some excess 
property and use part of the revenues to help pay for facilities 
construction and maintenance and some to acquire new facilities, and/or 
new lands.
    Question 2. Approximately how much of the revenue will be used to 
pay for Facilities Construction and Maintenance, and how much for 
acquisition of additional property?
    Answer. Generally funds generated by the sale of administrative 
sites will be used to realign the support infrastructure of the agency 
to its mission and organizational structure through facility disposal, 
construction, and maintenance. Most of the revenues will be used for 
facility rehabilitation or replacement, with emphasis toward optimizing 
efficiency and decreasing deferred maintenance backlog. Accomplishing 
those objectives will require a mixture of facility construction and 
maintenance. We do not have precise information on the proportion 
between construction and maintenance needed at this time.
    As we will generally be reducing total square footage of facility 
space, we do not anticipate the need for much new property acquisition; 
however, there will be some. One example is in District office 
consolidations, where several sites may be disposed of to build a new 
office in the optimum location.
    Question 3. I am confused. If these properties are excess to the 
agency's needs, why do you need to replace them or to acquire new 
lands?
    Answer. The Forest Service does not have many excess facilities, as 
most are currently occupied. However, we do have a need to realign 
facility space to a more optimum size and location and to decrease our 
deferred maintenance. There are many situations where employees should 
be relocated to another site to improve public service and improve 
space utilization and cost efficiency. For example, it may be optimum 
to consolidate two or more offices into one new efficient office near a 
centralized population while concurrently selling facilities at 
scattered sites. Such facility realignment is focused on improved 
service, efficiency, and reduced costs. Acquisition of new 
administrative properties, if needed, will be incidental to 
realignment.
    Question 4. How would the Department feel if we adopted this 
proposal, but directed that 90% of the revenues be used to improve the 
forest health conditions of our National Forests?
    Answer. As previously stated, we do not have excess facilities for 
disposal as a revenue source. Due to our changing agency mission and 
workforce, there is a critical need to realign our facilities to 
provide better public service and reduce maintenance liabilities. This 
conveyance program reduces the need for appropriated funds to meet that 
purpose. If the receipts are redirected to healthy forest activities, 
deficiencies in location, space utilization, and deferred maintenance 
backlog of fire, administrative and other facilities would be 
compounded.
                            land acquisition
    In the mandatory appropriations section of the bill I note an 
increase of $36 million in the Land Acquisition and Enhancements 
section.
    Question 5. Am I correct that the total requested budget for Land 
Acquisition when you add the discretionary and mandatory line items 
together is $76 million? Why do we need that much new federal land?
    Answer. The FY 2006 President's budget only requests $40 million 
for Land Acquisition. Within this amount, $26.5 million is for 
acquiring land. Another $500,000 is for cash to equalize land exchange 
values, and $13 million is for acquisition management costs.
    The $26.5 million requested in the President's Budget for new land 
acquisition projects is being proposed to help reduce current 
management costs through reduction of boundary survey and marking, as 
well as by providing greater access to current forest lands for fire 
suppression purposes. These projects will also provide greater public 
recreation opportunities and protect vital watersheds.
    Under the Land Acquisition and Enhancement Fund, the $36 million 
increase reflected in new budget authority represents estimated 
revenues that will be collected from the sales of administrative sites, 
including their associated land. Funds collected from these sales are 
only available for maintenance, rehabilitation and construction of 
facilities, and are not available for new land acquisition projects.
                      road and trail construction
    I also note in the Capital Improvements section you have 
significant reductions in Road and Trail Construction.
    Question 6. Do I understand your proposal correctly, that revenues 
from the sale of some of the excess properties will not be used to fund 
these important maintenance programs?
    Answer. The legislative proposal will provide funding for needed 
maintenance and construction of fire facilities, administrative 
facilities, research facilities, visitor centers and dams.
                       wildland fire suppression
    You've requested the 10-year average for funding fire suppression 
and this last year the Forest Service managed to expend more than the 
ten year average for fire suppression. It was only the supplemental 
appropriations funding they received that kept you from having to rob 
Peter to pay Paul.
    Question 7. What steps have you undertaken to control your fire 
costs? What steps have you taken to ensure the suppression production 
increases?
    Answer. In 2002, the Forest Service contracted with the National 
Academy of Public Administration to perform an independent cost 
containment review, which resulted in a report in September 2002. 
Additionally, during 2003 and 2004 the Forest Service completed more 
than 15 interagency regional reviews of fires that exceed $5 million 
dollars and performed national reviews.
    These reviews have resulted in more than 100 recommendations. 
Additionally, the agency is assessing numerous recommendations that 
have resulted out of interagency fire reviews conducted during the last 
couple of years. Most of these recommendations have the potential for 
cost savings when fully implemented. However, some will likely yield 
more substantial savings and merit greater attention. In order to focus 
efforts on those recommendations with the greater potential for return, 
we are conducting a cost benefit analysis using economic and financial 
experts. The results of this effort will be an implementation strategy 
that will enable focused efforts on recommendations with greater cost 
savings.
    For FY 2005, the agency determined that an in-depth, objective look 
at large fire costs was warranted. The agency requested OIG modify 
their audit schedule to enable them to conduct their planned Large Fire 
Cost Review to coincide with this year's fire season and the OIG 
concurred. The OIG will begin this review in FY 2005 including on-site 
visits during large incident activity.
    In compliance with a provision of the FY 2005 Department of Defense 
Appropriations Act (P.L. 108-287), the Secretary of Agriculture 
established an independent cost-containment review panel to examine and 
report on fire suppression costs for individual wildfire incidents that 
exceed $10,000,000. The review panel includes representatives from the 
academic and fire community as well as agency administrative subject 
matter experts. The review panel is currently finalizing the report 
that will be available soon.
    An additional measure that the Agency plans on implementing in the 
future that may result in potential savings is the method of supply 
analysis. The Agency is currently looking at methods of supply analysis 
from various perspectives. There are several groups working on methods 
of supply analysis in relationship to suppression procurement 
activities. The first group is a strategic group initiated by the cache 
managers to look at opportunities for centralized procurement, 
inventory, and delivery methods. A second group is from the acquisition 
management side looking for efficiencies through standardization. The 
Office of the Inspector General (OIG) is conducting an audit of the 
agency's procurement practices which may also help direct additional 
supply analysis.
    The agency is committed long term to controlling fire costs and has 
initiated the following actions: identifying the most cost effective 
alternative relative for fires escaping initial attack; developing 
stratifications of fire cost relative to size and other factors to 
identify incidents with costs outside the normal range; developing 
interagency cost performance measures for FY 2006; developing a long 
term strategic aviation strategy and plan; developing a large fire 
decision support system to provide enhanced decision support for fires 
escaping initial attack; and developing a comprehensive fire planning 
and budget system, Fire Program Analysis (FPA).
                             valles caldera
    I see that you have nearly zeroed out the funding for Valles 
Caldera again this year. I thought I had your assurance, in last year's 
hearing, that the Administration would more fully support this funding.
    Question 8. Why the increase in Forest Legacy funding, while the 
decrease in funding for Valles Caldera?
    Answer. The Forest Legacy Program (FLP) is an important voluntary 
private forest land conservation program. The FLP protects working 
forests, which provide important public benefits such as clean water, 
clean air, wildlife habitat, forest products, and recreation 
opportunities. Over the last several years, the FLP has revised its 
program management operations and project selection process to be 
nationally competitive based on standard national criteria. The program 
received a ``moderately effective'' rating through OMB's Performance 
Assessment Rating Tool evaluation because it has clarified a set of 
national goals and objectives, as well as implemented a set of 
accountability measures addressing outcomes, efficiency, and demand 
that can be tied to budget request. For these reasons, the 
Administration's budget request supports FLP funding to protect 
important private forest lands through a non-regulatory, incentive 
based approach.
    The request of $992,000 for the Valles Caldera is the same as was 
requested by the Administration in 2005 while the 2006 request for FLP 
funds was decreased by $20 million. Given that the 2006 request for all 
non-emergency discretionary funding is $173 million less than the 2005 
request and in light of other priorities, the 2006 Valles Caldera 
request was held constant at the $992,000 level.
                funding of employees during emergencies
    I asked the Chief about the number of forests that have an over-
reliance on emergencies to ensure their employees are funded for the 
year.
    Question 9. Can I get your commitment that you will take a very 
hard look at this situation? I understand that some forests would have 
to lay-off significant numbers of employees, if we ever had an 
emergency free year. Is that true?
    Answer. As implied in the question, any individual Forest Service 
unit experiences fluctuations in annual funding due to a variety of 
reasons, among them emergency funding for events such as hurricane 
relief, ice storm damage, and flooding, rain or snow events to name a 
few. Forest Service employees have also responded to non-Forest Service 
emergencies such as support to Columbia Shuttle recovery, Exotic 
Newcastle Disease, and recovery efforts following the attacks on the 
Pentagon and World Trade Center. However, all Forest Service units have 
sufficient funding to pay for the permanent employees they currently 
have. It must be noted that many units rely on a proportionately large 
number of temporary employees to complete seasonal work. It is 
absolutely the nature of having a seasonal workforce that the positions 
are filled contingent upon having sufficient funding. Moreover, in the 
desire to stretch every dollar and maximize the amount of work that 
gets done on the ground in a given year, many units will plan for some 
employees to spend some portion of their time being away from their 
regular job on a temporary or emergency assignment. Since this actually 
happens somewhat frequently, it is actually useful to plan for this 
absence when developing work plans for contracting or temporary hires. 
In the event that funds or assignments on other units are not 
available, employees stay home and contracts or temporary hires are 
reduced.
                 program funding: recreation and roads
    One of the strategic focuses in this budget is to provide 
recreation opportunities. I see funding reductions in the Recreation 
line item, funding for road maintenance, and regulatory initiatives on 
ORV transportation as signs that the agency may not be all that 
interested in providing for the number one recreational use of our 
National Forests, driving for pleasure.
    Question 10. How does this budget request result in any growth in 
road access and roaded recreational opportunities?
    Answer. The amount of roads passable to standard passenger cars has 
decreased 10,000 miles over the last decade. The agency's primary focus 
is on road user safety and protection of soil and water resources.
    Question 11. If we have several years in a row of these funding 
levels for road maintenance, aren't we doomed to more road closures, a 
concentration of motorized recreationists, and more impacts from that 
recreation?
    Answer. Road maintenance and reconstruction work will be focused 
primarily on critical health and safety needs and watershed protection 
measures. Actual road maintenance and reconstruction will decrease from 
FY 2004 actual (90,786 miles) and estimated FY 2005 levels (63,173 
miles) to 42,932 miles in FY 2006.
    I know this is a hearing on the budget, but could you speak some on 
trends in receipts? I see by and large you are projecting that they 
will continue to fall--that is all except the receipts from the 
recreation fee program.
    Question 12. Given the risk of the forest counties schools 
legislation not getting re-authorized, what should the counties that 
will depend on Forest Service receipts be preparing for?
    Answer. The Administration could support reauthorization of P.L. 
106-393 with agreed upon savings that fully offset the payments that 
the bill would authorize and if the bill is amended to incorporate 
other changes. The Administration will be happy to work with the 
committee to identify offsets. The Administration is working with the 
committees on improvements to S. 247 and the companion House bill.
    If P.L. 106-393 is not reauthorized, then counties will return to 
the 25 percent fund payments authorized under the 1908 Act beginning in 
FY 2007. Any unexpended Title II funds authorized by P.L. 106-393 must 
be obligated by that time or returned to the treasury. Title III funds 
will be available until expended by the county.
    FY 2004 payments from the national forest were $79.7 million, while 
the current funding level under the full payment amount is $393.8 
million.
               funding for forest service strategic goals
    In reading your budget request indicates that you will focus on 
five strategic goals including reducing the risk from catastrophic 
wildfire, reducing impacts from invasive species, providing outdoor 
recreation, helping to meet energy resource needs, and improving 
watershed conditions. But when I examined the budget request and the 
proposed outputs I only saw two areas that received significant budget 
increases, the Forest Legacy program, and Hazardous Fuels Reduction.
    Question 13. Can you point to any evidence in the budget request to 
suggest that Forest Legacy has anything to do with any of the strategic 
goals?
    Answer. The Forest Legacy Program (FLP) protects working forests, 
which provide important public benefits such as clean water, clean air, 
wildlife habitat, forest products, and recreation opportunities. The 
FLP supports the Forest Service's strategic goals of providing outdoor 
recreation and improving watershed condition. Thirty-one out of the 40 
states and territories participating in FLP identified protecting 
watershed function and water supply as a program priority and 20 states 
and territories identified recreation as a program priority.
    In addition, goal six of the Forest Service's Strategic Plan 
includes the objective of maintaining the environmental, social, and 
economic benefits of forest and grasslands by reducing their conversion 
to other uses. The FLP is an important voluntary private forest land 
conservation program that helps the Forest Service accomplish this 
objective.
    The four major challenges to the Nation's forests and grasslands 
identified by the Forest Service are: (1) fire and fuels, (2) invasive 
species, (3) unmanaged recreation, and (4) loss of open space. The FLP 
helps States address the environmental and economic consequences of 
loss of open space and working forests.
                    state and local fire assistance
    I see the proposed increase in Hazardous Fuel Reduction, but I also 
see significant cuts proposed in State and Local Fire Assistance.
    Question 14. Will the proposed cuts to State and Local Fire 
Assistance decrease the ability of those rural fire fighters to be 
first responders on National Forest fire emergencies?
    Answer. No, although the proposed funding in State Fire Assistance 
did decrease, the proposed funding for Volunteer Fire Assistance (VFA) 
remains the same as FY 2005. VFA funding is aimed specifically at 
building and maintaining fire fighting capacity in fire departments 
serving communities of less than 10,000 people. Rural and volunteer 
fire departments provide a first line of defense in coping with fires 
and other emergencies in rural areas and communities. These departments 
provide nearly 80 percent of initial attack on wildfires in the United 
States. We anticipate that maintaining current funding levels in 
Volunteer Fire Assistance will maintain rural fire fighters capability 
to respond to National Forest fire emergencies as they have in the 
past.
    Question 15. I also note that the number of communities to be 
assisted through the State and Private Fire Assistance program is to be 
cut in half. How will that impact the overall team effort to fight 
fires?
    Answer. We anticipate that a shift in some funding requirements 
from federal level (State Fire Assistance) to the state and local level 
to assist local communities should not significantly affect the overall 
team effort. Volunteer Fire Assistance in the President's budget 
remains at the FY 2005 level.
                        fire suppression funding
    Last year's fire season, while a 7 million acre year, did not 
impact on the lower 48 States all that much. Yet, I am told you 
expended more than 100% of your suppression funding.
    Question 16. What specific steps have you taken, and will you take, 
to contain your fire suppression costs in FY 2006?
    Answer. In 2002, the Forest Service contracted with the National 
Academy of Public Administration to perform an independent cost 
containment review, which resulted in a report in September 2002. 
Additionally, during 2003 and 2004 the Forest Service completed more 
than 15 interagency regional reviews of fires that exceed $5 million 
dollars and performed national reviews.
    These reviews have resulted in more than 100 recommendations. 
Additionally, the agency is assessing numerous recommendations that 
have resulted out of interagency fire reviews conducted during the last 
couple of years. Most of these recommendations have the potential for 
cost savings when fully implemented. However, some will likely yield 
more substantial savings and merit greater attention. In order to focus 
efforts on those recommendations with the greater potential for return, 
we are conducting a cost benefit analysis using economic and financial 
experts. The results of this effort will be an implementation strategy 
that will enable focused efforts on recommendations with greater cost 
savings.
    For FY 2005, the agency determined that an in-depth, objective look 
at large fire costs was warranted. The agency requested OIG modify 
their audit schedule to enable them to conduct their planned Large Fire 
Cost Review to coincide with this year's fire season and the OIG 
concurred. The OIG will begin this review in FY 2005 including on-site 
visits during large incident activity.
    In compliance with a provision of the FY 2005 Department of Defense 
Appropriations Act (P.L. 108-287), the Secretary of Agriculture 
established an independent cost-containment review panel to examine and 
report on fire suppression costs for individual wildfire incidents that 
exceed $10,000,000. The review panel includes representatives from the 
academic and fire community as well as agency administrative subject 
matter experts. The review panel is currently finalizing the report 
that will be available soon.
    An additional measure that the Agency plans on implementing in the 
future that may result in potential savings is the method of supply 
analysis. The Agency is currently looking at methods of supply analysis 
from various perspectives. There are several groups working on methods 
of supply analysis in relationship to suppression procurement 
activities. The first group is a strategic group initiated by the cache 
managers to look at opportunities for centralized procurement, 
inventory, and delivery methods. A second group is from the acquisition 
management side looking for efficiencies through standardization. The 
Office of the Inspector General (OIG) is conducting an audit of the 
agency's procurement practices which may also help direct additional 
supply analysis.
    The agency is committed long term to controlling fire costs and has 
initiated the following actions: identifying the most cost effective 
alternative relative for fires escaping initial attack; developing 
stratifications of fire cost relative to size and other factors to 
identify incidents with costs outside the normal range; developing 
interagency cost performance measures for FY 2006; developing a long 
term strategic aviation strategy and plan; developing a large fire 
decision support system to provide enhanced decision support for fires 
escaping initial attack; and developing a comprehensive fire planning 
and budget system, Fire Program Analysis (FPA).
                            forest planning
    Last year you and I discussed the forest plan situation in New 
Mexico. I complained about our plans not being scheduled for revision 
until 2011 and 2012. I note that your new forest planning rule suggests 
those plans will not be completed by 2009, a two year improvement over 
last year's schedule.
    But I still have a concern. There are 23 other national forests 
that were due for revision in 2001, like our New Mexico forests, that 
are scheduled to be completed before our revisions. There are another 
25 that were due for revision in 2002 or later that will be completed 
before our forests in New Mexico.
    Question 17. What does Region Three have against forest planning, 
and why must New Mexican's be the last forests in the planning queue?
    Answer. The Southwestern Region made major amendments to all of 
their Forest Plans in 1996 to address Mexican Spotted Owl and northern 
goshawk. Due to that large-scale amendment effort the Region did not 
place emphasis on Plan Revision work until the last two years. Initial 
work has begun to prepare the assessments necessary for Forest Plan 
revisions. To achieve economies of scale it was necessary to group 
Forest Plan revisions into logical units for the assessment work. The 
Coronado National Forest has many issues with border land management 
that requires changes in Forest Plan management direction. We have 
therefore placed the emphasis on Arizona assessments and revisions. The 
Coronado National Forest is starting this year and next year the Region 
plans to begin revisions on the Apache-Sitgreaves, Coconino, Kaibab, 
Prescott, and Tonto National Forests. Assessment work is beginning this 
year in New Mexico and in FY 2007 we are scheduled to start revisions 
on the New Mexico Forests. The National Grasslands administered by the 
Cibola National Forest are starting revision this year due to the 
unique and isolated situation. The agency plans on all forests 
completing their revision within 2-3 years of initiating under the 2004 
planning Rule.
                      range management and grazing
    Question 18. Given the exceptionally wet year we have been having 
in New Mexico, can we expect to see cattle and live stock stocking 
numbers increased this summer and how will your proposed budget 
decreases affect those efforts?
    Answer. At this time the Region and the Forests are assessing the 
situation. At this time they anticipate the amount of use may increase 
from the past two years, however, some areas may see less and others 
may see more based on the amount of forage growth. As the year goes by, 
further assessments will take place to help determine the full extent 
of the increase. The budget amount will not determine the amount of 
grazing that takes place.
                            employee funding
    We have seen a significant number of emergencies that have helped 
fund a large number of employees over the last three years. Beyond 
fires, your agency has sent people to deal with everything from 
hurricanes, floods, the space shuttle disaster, to New York to deal 
with 911, and even to help kill chickens in bird flu situations. I also 
note that you're projecting to reduce the funding of Full Time 
Equivalents employees from 37,650 down to 36,000.
    Question 19. Are your planned reductions in personnel in line with 
your planned budget reduction?
    Answer. Planned staffing levels are in line with the planned 
budget. We anticipate significant savings in indirect costs through the 
streamlining of business operations, including through the 
establishment of the Albuquerque Service Center, and these savings will 
help maintain capability for on the ground work.
    Question 20. Can you provide me a list of forests that will have 
sufficient funding to pay for the employees they currently have, in the 
absence of some emergency helping to fund the positions? And can you 
include an estimate of what percent of each forest's employees depend 
on emergencies to maintain their full annual salary?
    Answer. All forests have sufficient funding for their permanent 
full time work force. Forest Service regions rely upon temporary, 
seasonal help when needed during the fire season.
                           santa fe watershed
    Congress has funded for the past three years a program through the 
Forest Service to thin the watershed which provides 40 percent of the 
water for the City of Santa Fe. The appropriations have totaled 
something on the order of about $5.5 million over four years. I have 
been impressed with the progress in reducing the potential fire danger 
in the Santa Fe Watershed.
    Question 21. Could you please tell me how many acres have been 
treated in the Santa Fe Watershed to this point?
    Answer. To date, 3,638 acres (57%) have been treated.
    Question 22. What is the cost per acre on average, and what are the 
major components of the cost to thin this watershed area?
    Answer. Of the 2,500 acres treated in the Santa Fe Watershed 
projects, the costs to complete the project to date averaged $469 per 
acre. Thinning of 1,000 acres cost $945 per acre or $945,000, 
prescribed burning of 1,500 acres cost $75 per acre or a total of 
$75,000, monitoring of the watershed by the Rocky Mountain Research 
Station has cost $123,828 and monitoring by the Southwestern Region has 
cost $27,500 to date. Total project cost has bee $1,171,328 over the 
2,500 acres. Pile burning is accomplished with Forest Service personnel 
at an additional cost of approximately $50 an acre.
    Question 23. How many acres are remaining to be treated to complete 
the thinning project?
    Answer. 1,763 acres (28%) will be thinned in FY 2005, with the 
remaining 1,000 acres (15%) planned for FY 2006. All of the thinning 
projects require pile burning the following year. Final completion of 
the hazardous fuel reduction project is estimated to occur in FY 2007, 
depending upon weather and burning conditions.
    Question 24. What is the estimated cost to complete the Santa Fe 
watershed thinning project?
    Answer. Completion of the thinning project will cost about $1.2 
million (FY 2006--$1.1 million; FY 2007--$0.1 million). This estimate 
includes thinning, prescribed fire, and monitoring costs associated 
with the project.
    Question 25. What is the estimated cost to maintain this watershed 
once the thinning project is completed?
    Answer. To maintain the watershed in the desired condition, it 
would be necessary to thin a 6,400 acre area once every nine years at a 
cost of approximately $800,000. In addition to thinning, annual 
prescribed fires over 700 acre plots would cost an estimated $91,000 
per year.
    Question 26. Has the Forest Service identified any other major 
watersheds at risk from catastrophic fire? Could you please provide 
that information to the Committee?
    Answer. The Forest Service is engaged in collaborative efforts to 
prioritize communities and watersheds at risk in New Mexico and other 
states. Further project development is taking place through the 
Community Wildfire Protection Plan (CWPP) process in many New Mexico 
communities and counties. The Forest Service is an active participant 
in CWPP development, with final responsibility resting with the 
community. Several watersheds have been identified through 
collaborative efforts, including the Gallinas, Cloudcroft, Ruidoso, and 
Alamogordo and Catron and Grant Counties. The Forest Service is working 
with these communities to develop restoration plans. Each of these 
communities is important to the Forest Service. The flexibility to 
prioritize projects on an annual basis is a critical component to the 
continuation of a positive and effective relationship with communities.
    Question 27. Is the Forest Service working on plans to address 
these major areas? What would be the process used to move forward with 
these priority projects?
    Answer. Yes. As stated in the previous answer, the Forest Service 
is engaged in collaborative efforts to prioritize communities and 
watersheds at risk in New Mexico and other states. Further project 
development is taking place through the Community Wildfire Protection 
Plan (CWPP) process in many New Mexico communities and counties. The 
Forest Service is an active participant in CWPP development, with final 
responsibility resting with the community.
    Question 28. What have been the lessons learned from this project?
    Answer. The agency learned several valuable lessons from the Santa 
Fe Watershed restoration project including:

  <bullet> An informed and educated public will create support that 
        will allow for approximately twenty percent more prescribed 
        burning accomplishments annually.
  <bullet> Benefits of whole tree mastication exceed hand piling of 
        thinned material, which requires at least two more treatments. 
        Additional treatments required for thinning, hand piling, and 
        burning add more time and costs to the project.
  <bullet> Thinning prescriptions to reduce fire behavior need to be 
        based on slope instead of a broad prescription for 
        environmental constraints. More trees need to be removed on 
        steep slopes to reduce fire behavior to acceptable levels of 
        control and fire protection. The need to reduce more trees is 
        due to the way fire preheats fuels on steep slopes versus flat 
        ground.
  <bullet> Necessary skills for management of the project include 
        global positioning system, geographic information system 
        skills, forestry expertise, and a dedicated person to manage 
        project. These skills will avoid unnecessary complications with 
        contractors on acres being treated.
  <bullet> As the benefits of mastication are seen, there will be an 
        increase in competition both for the services rendered by the 
        contractor and for the contractor to provide the services at a 
        lower cost.
   Responses of the Forest Service to Questions From Senator Bunning
                     law enforcement--illegal drugs
    Question 1. One of the problems in the forests of my home state is 
the difficult task of combating illegal drugs. The Daniel Boone 
National Forest. Because of its size and isolated location, the 
Appalachians of eastern Kentucky has become a haven for marijuana 
growers and methamphetamine laboratories. In the past, the Daniel Boone 
National Forest has effectively used the Kentucky National Guard to 
fight this illegal activity. With more and more of the guard fighting 
terrorism, I am concerned that the Daniel Boone will have difficulty 
maintaining a strong drug interdiction program. Is this a widespread 
problem for National Forests? What do you plan to do to address this 
critical issue? Is this a widespread problem for National Forests?
    Answer. The Southern Region has seen a reduction in National Guard 
support to assist National Forest law enforcement officers/agents with 
the cutting and removing of marijuana plants.
    Forest Service Law Enforcement and Investigations staff makes every 
effort to maintain the highest level of law enforcement presence in the 
field as possible. Officers on detail from other areas within the 
region are used whenever possible.
    The Forest Service is partnering with the Office of National Drug 
Control Policy, the National Marijuana Initiative and other Federal, 
State and local law enforcement agencies. Sharing manpower resources, 
intelligence and working in task force groups eradicating and 
investigating marijuana and methamphetamine usage benefits the National 
Forest.
    The Forest Service is a permanent and committed member to the 
Office of National Drug Control Policy, High Intensity Drug Trafficking 
Area (HIDTA). The Appalachia HIDTA provides Forest Service officers/
agents with limited financial resources to detect, destroy and 
investigate illegal marijuana and methamphetamine usage on the Daniel 
Boone and Cherokee National Forests.
                   wildland fire suppression funding
    Question 2. The proposed budget for the forest Service includes 
significant decreases in funding for fighting forest fires. While I 
realize that there were extraordinary events last year that prompted 
emergency funding, in any given year there will be a certain level of 
natural forest fire activity. Does your budget realistically reflect 
the costs of fighting fires in an average year or do you expect to 
return to congress for emergency funding after the first large scale 
fire?
    Answer. The budget reflects the 10-year average annual cost of 
wildland fire suppression. Unobligated balances from previously 
appropriated funds will be available if not obligated in FY 2005. In 
addition, agency efforts to reduce suppression costs will lessen the 
need for additional funds absent extraordinary circumstances. If a 
severe fire season occurs in FY 2006, resulting in suppression costs 
that exceed the amount available, funds will be transferred from other 
Forest Service programs.
               forest legacy program--knobs state forest
    Question 3. Kentucky recently established a forest legacy program 
and identified the Knobs State Forest as its first priority for the 
program. Would you explain how the forest legacy program will work in 
Kentucky and at the Knobs State Forest?
    Answer. In 2003, Kentucky entered the Forest Legacy Program with 
the approval of the State's Assessment of Need (AON) by the Secretary 
of Agriculture. The AON is an implementation plan that evaluates forest 
characteristics, uses, and threats; describes specific forest areas 
where the FLP will be focused; and outlines program goals and 
eligibility criteria. After coordination with the State Forest 
Stewardship Coordinating Committee and conducting public involvement, 
the Kentucky Division of Forestry identified the state's program goals 
to protect environmentally important forest areas that are threatened 
by conversion to non-forest uses and to promote working forests and 
other conservation opportunities. In addition, four Forest Legacy Areas 
were defined to focus the FLP into areas with high important forest 
resources and known threat of conversion.
    FLP projects are evaluated through a nationally competitive 
selection process based on standard criteria. Projects with the highest 
scores are included in the President's budget request. The Knobs State 
Forest project is included in the President's FY 2006 budget request, 
and also received funding in FY 2004 and FY 2005. This project is 
located in the Salt River watershed, which is experiencing significant 
conversion of working forests to other uses. Once formed, this new 
state forest will protect an important working forest and provide much 
needed recreational opportunities, educational opportunities, habitat 
protection, and other benefits in a heavily populated area.
   Responses of the Forest Service to Questions From Senator Bingaman
                     us aid--reforestation of haiti
    Question 1. Secretary Rey and Chief Bosworth, I would like to bring 
to your attention language in the omnibus conference report directing 
US AID, in consultation with the Department of Agriculture and others, 
to develop a comprehensive strategy on reforestation in Haiti.
    In May of 2004, nearly 3000 Haitians were killed in flooding caused 
only by moderate rains. In September, then Tropical Storm Jeanne killed 
nearly 5,000 more Haitians. Storms in 2003 and 1998 also claimed many 
Haitian lives due to flooding. There is widespread agreement that these 
tragedies are directly linked to deforestation.
    I specifically sought to have the language requiring US AID to 
consult with the Department of Agriculture included in the Omnibus 
report because I think we need some fresh thinking on Haiti 
reforestation, and I think that this is something in which the Forest 
Service should play a constructive role.
    Will you commit to devoting some resources and expertise to that 
important effort?
    Answer. We understand that USAID is in the process of developing 
the requested strategy for Haitian watershed restoration and that they 
will invite the Forest Service and other agencies to contribute its' 
development before it is finalized. We agree that new ideas are needed 
and we are committed to working with both USAID and Congress to develop 
innovative approaches to address this important issue.
                         timber sale accounting
    Question 2. A few weeks ago, the Congressional Budget Office issued 
its ``Budget Options'' report for Congress to consider. That report 
says that the Forest Service does not maintain the necessary data to 
estimate the annual receipts and expenditures associated with 
individual [timber] sales. Thus, it is hard to estimate precisely the 
budgetary savings . . . (Chapter 2, page 97). The General 
Accountability Office had arrived at the same conclusion in earlier 
reports. Does the Forest Service agree with the statement quoted above 
from the CBO report, and has it corrected the accounting problems 
relating to timber sales that have been identified by the GAO? Please 
explain.
    Answer. The Forest Service does not agree that we have accounting 
problems relating to timber sales. While receipt information is 
maintained by individual timber sale in the Timber Sale Accounting 
subsidiary system, expenditure information is maintained at the 
programmatic level by National Forest. Maintaining cost information at 
the individual timber sale level is not a federal financial requirement 
nor does agency management consider it essential to program or 
budgetary decision-making. Further, the cost of maintaining expenditure 
information at the sale level of detail would far exceed the benefit 
from our perspective. We recognize GAO's prior review of the timber 
sale program but there were no agreements regarding accounting at the 
individual timber sale level. With respect to the language in the 
Congressional Budget Office report regarding budgetary savings, it is 
unclear what is meant by this statement and we therefore have no 
response.
                federal lands recreation enhancement act
    Question 3. The recently enacted Federal Lands Recreation 
Enhancement Act includes a number of criteria and limitations that 
restrict the Forest Service fee collection authority. For which areas, 
if any, will the Forest Service no longer be collecting fees as a 
result of the restrictions in that Act.
    Answer. The Federal Lands Recreation Enhancement Act (FLREA) 
prohibits charging entrance fees or standard amenity fees for 
individuals under 16 years of age. This prohibition affects the Forest 
Service at recreation sites around the country that charge on an 
individual basis, primarily visitor centers. In addition, unlike the 
Agency's authority under Land and Water Conservation Fund (L&WCF) Act 
and Fee Demonstration program, the FLREA also prohibits charging an 
entrance fee for certain congressionally designated areas such as 
National Recreation Areas or National Scenic Areas. As a result of this 
prohibition, the Forest Service no longer collects an entrance fee at 
these areas. Certain portions of these congressionally designated areas 
may meet the FLREA criteria for charging a standard amenity fee.
    To be in compliance with the FLREA criteria, additions to and 
removals from the Forest Service's recreation fee program will be 
initiated this Spring when Forest Service specific guidelines are 
issued to the Forests for implementation. Removals will likely include 
some day-use facilities and boundaries adjusted at some high impact 
recreation areas. With the repeal of L&WCF fee collection sections, 
several campgrounds will be added to the FLREA program.
 federal energy regulatory commission and hydroelectric power licensing
    Question 4. Please describe the current process at the Forest 
Service for developing mandatory conditions for hydroelectric licenses 
under the Federal Power Act. Is the time line for developing these 
conditions consistent with the time line for relicensing proceedings at 
the Federal Energy Regulatory Commission? Please describe.
    Answer. The current process for developing mandatory conditions for 
hydroelectric licenses is formally outlined in Forest Service Manual, 
2770, Federal Power Act Projects as follows:

    1. Respond to the Federal Energy Regulatory Commission's (FERC) 
notice of acceptance of a license application with a report pursuant to 
section 4(e) of the Federal Power Act of October 24, 1992 (43 U.S.C. 
1761(d)) for any project that occupies National Forest System (NFS) 
land.
    2. Provide FERC with a statement of the conclusions as to the 
project's consistency or interference with national forest purposes and 
the project's consistency with the applicable land management plan. 
Identify the nature and extent of any significant inconsistency or 
interference.
    3. Coordinate with FERC and other Federal and State agencies, as 
appropriate, in determining the license conditions necessary for the 
protection and utilization of NFS lands and resources.
    4. Transmit to FERC those section 4(e) license conditions the 
Forest Service considers necessary to mitigate effects on NFS lands and 
resources that are directly attributable to project operations and 
maintenance.
    The time line for developing Forest Service conditions is 
consistent within boxes ``NEPA Track A 20A-24A'' or ``NEPA Track B 20B-
23B'' the timeline for relicensing proceedings at the Federal Energy 
Regulatory Commission. The diagram displays both the timeline and 
integration of the federal agencies development of conditions with 
FERC's licensing process.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question 5. What efforts has the Forest Service made to coordinate 
its process for developing conditions with the FERC?
    Answer. As part of a number of efforts, and in response to the 
National Energy Plan, the Forest Service conducted a review of the 
National Environmental Policy Act (NEPA) as applied to the Federal 
Power Act (FPA) Section 4(e) conditions and the policies and practices 
of other federal agencies that also submit conditions to FERC. The 
Forest Service review determined that the development of FPA Section 
4(e) conditions does not constitute an independent agency action by the 
Forest Service. The NEPA ``action'' regarding licensing of 
hydroelectric projects is FERC's.
    This change made Forest Service policy consistent with the policy 
and practice of other federal agencies that submit conditions to FERC 
pursuant to the FPA (e.g., USFWS, BIA, BLM, and NOAA) and allowed the 
FS to file any revisions to its preliminary conditions at the same time 
as other federal agencies. As for all agency conditions, opportunity 
for public comment on the agency's 4(e)'s is available in the FERC 
process, and parties to the FERC proceeding still have an appeal 
opportunity in the FERC licensing process.
    This change in policy also allows for early and frequent public 
involvement in the development of FS 4(e)'s. This is in line with the 
newly proposed FERC integrated licensing process and the practice of 
other federal agencies with mandatory conditioning authority. Through 
the FERC process, the FS and other agencies provide many opportunities 
for public comment while FERC is scoping issues during environmental 
reviews of license applications.
    Question 6. Does the Forest Service afford license applicants and 
others an opportunity for an administrative appeal of a mandatory 
conditions? If so, please describe the appeals process.
    Answer. The Forest Service does not issue a decision document when 
license conditions are transmitted to FERC. Our conditions are not 
agency decisions as defined in 36 CFR 215. However, the Forest Service 
is committed to providing ample opportunities for public input as it 
develops its mandatory conditions. The public can also review and 
comment through FERC's licensing process. Federal agencies are required 
to submit preliminary conditions to FERC upon notice from FERC that the 
application is ``ready for environmental review.'' All of the agencies 
preliminary conditions are included in FERC's draft environmental 
impact statement (EIS). The license applicant, other parties to the 
FERC proceeding, and the public can comment on the FERC NEPA document 
and file reply comments on the comments of others. As has been our 
practice, the Forest Service will continue to consider and respond to 
comments on its preliminary conditions in determining the need for 
revised conditions before submitting the mandatory conditions that will 
be part of FERC's final NEPA document and included in the license.
    Question 7. Does the Forest Service conduct formal adjudicatory 
appeals as provided for by the Administrative Procedure Act?
    Answer. The Administrative Procedure Act (APA) requirements are 
self-defining and the Forest Service's voluntary and other statutorily 
required appeal systems do not fall within APA's requirements for, or 
definitions of, a formal adjudicatory process. The APA establishes 
procedural requirements for only one class of adjudications: those 
which are ``required by statute to be determined on the record after an 
opportunity for an agency hearing.'' This means the APA's formal 
adjudication procedures are mandatory only when some other statute 
directs the agency to conduct an evidentiary hearing in adjudicating 
particular kinds of cases. The Forest Service Title 36, Code of Federal 
Regulations, Sections 215, 217 and 218 appeal systems do not qualify as 
formal adjudications as the system is an informal, discretionary appeal 
opportunity, refined over the years. As noted in answers above, since 
the Forest Service does not issue a decision document to FERC, our 
conditions are not an appealable decision.
   Responses of the Forest Service to Questions From Senator Cantwell
                          recreation--funding
    Question 1. Mr. Rey, the Northwest Forest Pass, created under the 
Fee Demo program, currently brings in more than one million dollars 
each year to trails in Washington state. Local forests, which have seen 
their recreation budgets decline dramatically over the past decade, 
have come to depend upon these funds to take care of basic maintenance 
and operations needs.
    How will the new fee regime, created under the Federal Lands 
Recreation Enhancement Act, ensure that this important source of trail 
funding is preserved?
    Answer. The decision on how to spend recreation enhancement fee 
revenue is made at the Forest level, in consultation with the public. 
Under Fee Demo, generally a portion of each Forest's Northwest Forest 
Pass revenue was used to maintain forest trails through the hiring of 
crews to do trail maintenance and provide support to volunteer 
organizations that perform trail maintenance. Based on criteria 
provided by the Federal Lands Recreation Enhancement Act (FLREA), there 
may be removals and additions of day-use facilities, including 
trailheads, to the Northwest Forest Pass, which may impact the fee 
revenue available for use by a forest. Upon release of Forest Service 
guidelines for implementation of FLREA, all sites or areas that were 
previously charging recreation fees, including those sites under the 
Northwest Forest Pass, will be evaluated to align with FLREA. Those not 
meeting FLREA's criteria will no longer impose fees. Until these 
reviews are complete, revenue projections for the Northwest Forest Pass 
are uncertain.
    Question 2. Or, if the Northwest Forest Pass does not continue in 
its current form, how will the agency cover the cost of maintaining its 
trail system?
    Answer. Generally, forests have contributed Northwest Forest Pass 
fee revenue to partners who complete trail maintenance projects. 
Partnerships, donations, grants, and volunteer contributions are the 
threads that hold the trails program together. Trail maintenance 
priorities are established by the forest based upon available funding, 
including appropriated and recreation fee sources.
    Question 3. Mr. Rey, as you know, funds shifted within the Forest 
Service at the national level magnify exponentially as they filter down 
through the regions to local forests, especially as the agency covers 
its various overhead and management expenses.
    Given the President's proposed flat budget for Forest Service 
recreation funding, what do you anticipate to be the actual impact to 
recreation budgets at the forest level?
    Answer. The proposed budget in the recreation program continues at 
the FY 2005 enacted level; however, some program delivery will impacted 
by absorbing the $4.5 million in pay costs. The agency will focus on 
efforts that maximize recreation delivery and place emphasis on high 
priority efforts that deliver services to the public, including those 
where the agency also has partnerships to honor. Priority will go to 
the operation of developed sites and visitor centers, public services 
such as interpretation, and addressing ecosystem health in areas of 
sanitation and garbage removal. We will also continue implementation of 
the OHV efforts, the recreation site realignment process, and meet our 
obligations to our service partners.
    Question 4. Likewise, the President has proposed a 16 percent cut 
to the agency's Capital Improvement and Maintenance/Trails (CIMT) 
account. After adjusting for agency and overhead costs, for every 
dollar delivered to a Washington forest in 2005, how many cents will 
they see in 2006?
    Answer. The total trail capital improvement and maintenance funds 
allocated to the Pacific Northwest Region (Washington and Oregon) in FY 
2005 was $9,688,000, with $3,541,000 (36.5%) going to cover cost pools. 
The allocation will be similar in FY 2006.
    Question 5. Mr. Rey, I understand that the individual regional 
Forest Service requests for LWCF funding to acquire in-fill parcels for 
the Pacific Crest National Scenic Trail total $5 million. All of these 
acquisitions are from willing sellers and will allow trail relocation 
off the roadway for safety reasons, and to protect the trail from 
intense development pressures.
    Please explain why the President's budget request does not follow 
the recommendations of the regional Forest Service offices.
    Answer. The President's budget reflects national priorities for the 
acquisition of land to be included in the National Forest System and 
focuses on the agency's annual and strategic program goals and 
objectives. Annually, each Region submits a list of acquisition 
projects that represent high resource value and a requested amount to 
fund those acquisitions. These projects are ranked nationally based on 
explicit criteria that typically focus on acquiring lands providing 
increased recreation opportunity and open space while reducing the 
threat of development and management cost. Proposed projects are then 
provided with a level of funds consistent with their national ranking 
and in proportion to the Administration's funding allocation for 
overall land acquisition. For FY 2006, the President's Budget request 
includes acquisitions for the Pacific Crest Trail project in both 
Regions 5 and 6 and was allocated a proportional share of resources 
within the funding limits provided.
                    roadless area conservation rule
    Question 6. Mr. Rey, as you know the Forest Service is currently 
considering comments to its proposed changes to the landmark 2001 
Roadless Area Conservation Rule.
    Please provide me with an update on this process and when you think 
it will be completed.
    Answer. The Forest Service is still processing and considering 
public comments at this time with the intent of completing this process 
in FY 2005.
    Question 7. What is the total number of comments received on this 
draft rulemaking?
    Answer. The agency estimates it has received 1.8 million comments.
    Question 8. How many of those comments were from Washington state?
    Answer. The Forest Service does not compile information on the 
sources of comments.
    Question 9. Can you provide a preliminary analysis of those 
comments?
    Answer. No, given the stage of the comment analysis we are in, we 
are not able to provide a preliminary analysis at this time.
    Question 10. Mr. Rey, the proposed changes to the Roadless Rule 
would provide governors with an unprecedented roll in determine the use 
of federally owned lands.
    Is there any historic or regulatory precedence for state officials 
deciding how federal lands should be managed?
    Answer. State officials would not decide how to manage the Federal 
lands. The proposed rule would establish administrative procedures to 
allow a Governor to petition the Secretary to undertake future 
rulemaking to establish or adjust management requirements for 
inventoried roadless areas within the State. If the Secretary accepts a 
petition, subsequent State-specific rulemaking would be proposed that 
would include public involvement and the appropriate level of 
environmental analysis. Governors would not make the rulemaking 
decisions; they would make recommendations to be considered in future 
rulemaking, and a commitment that the State would participate as a 
cooperating agency in any environmental analysis for that State-
specific rulemaking.
    Question 11. Is the Department of Interior concerned about how this 
dynamic could alter the use of other federally owned public lands?
    Answer. The Forest Service is not aware of any concerns by the 
Department of Interior about the proposed rule.
    Question 12. Do you envision providing state agencies with federal 
resources to take on these tasks?
    Answer. No. The Forest Service would provide the State with 
available information. The responsibility for collaborating with 
interested parties and assembling the petition for submittal to the 
Secretary would be a State responsibility.
    Question 13. Mr. Rey, I understand that under the draft rule the 
Forest Service still retains all the final decision-making authority. 
Is it true that the Forest Service can still turn down any or all 
Governors requests for roadless area protections?
    Answer. The petitioning process is strictly voluntary. If a 
Governor does not submit a petition to the Secretary for consideration, 
then the management requirements for inventoried roadless areas in that 
particular State would remain as they are in approved land management 
plans. Decisions to approve land management plans are made by the 
Forest Service. Under the proposed rule, the decision to accept or 
decline a petition by a Governor to recommend changes to the management 
requirements through State-specific rulemaking for these areas rests 
with the Secretary, as does the decision to adopt any subsequent State-
specific rulemaking.
    Question 14. What does the Forest Service estimate it will cost to 
begin a new state-by-state rulemaking process?
    Answer. There are 38 States and the Commonwealth of Puerto Rico 
that contain National Forest System inventoried roadless areas. Since 
this petitioning process is strictly voluntary, there is no way to know 
how many petitions might be submitted to the Secretary, or how many 
submitted petitions the Secretary might approve that could then trigger 
subsequent State-specific rulemaking. An individual State-specific 
cost-benefit analysis would subsequently be completed.
    Question 15. How will the proposed rule change affect the existing 
multibillion dollar road maintenance backlog?
    Answer. There should not be any direct affect on the maintenance 
backlog. The roadless rule will not have a direct affect on the mileage 
of the road system.
    Question 16. Please update me on the state of the road maintenance 
backlog, including an estimation of its overall cost and an explanation 
of how these figures were derived.
    Answer. Based on refinements to our inventory data, we estimate our 
road backlog for deferred maintenance and capital improvement costs to 
be $6.5 billion. If you factor in the added organizational costs for 
design and contract administration plus all overhead costs for support, 
we estimate the total cost to restore our road system to be around $9 
billion. This estimate is the sum of deferred maintenance needs and of 
capital improvement needs necessary to implement forest plans. The 
amounts are derived from estimates made during condition surveys of the 
roads. All passenger car roads were surveyed and a statistical sample 
of non-passenger car and stored roads was conducted.
    Question 17. How does the President's FY 2006 budget request 
propose to deal with this vital issue?
    Answer. In the President's FY 2006 proposed budget, addressing the 
needs of wildland fire management and hazardous fuels reduction is an 
agency priority. The agency will continue to emphasize public safety in 
order to assure road user safety on the existing roads open to 
passenger cars and on roads passable only by high clearance vehicles. 
Priorities that determine the mileage of roads maintained in each 
category will be developed at the local level. Doing this will allow us 
to meet emergency needs, critical annual health and safety maintenance 
needs, and critical deferred health and safety (backlog) needs on the 
most important roads. When non-priority roads are closed by natural 
events, such as floods, landslides, and blow down, they will likely 
remained blocked to traffic. Opening such roads would not be a priority 
unless they become critical for public access or accomplishment of 
resource projects.
                       wildland fire preparedness
    Question 18. Mr. Rey, as you know, the issue of USFS firefighter 
safety has been an issue that I have paid very close attention because 
of a horrible tragedy. On July 10, 2001, near Winthrop in Okanogan 
County, in the midst of the second worst drought in the history of our 
state, the Thirtymile fire burned out of control.
    Four courageous young firefighters were killed. Their names:

  <bullet> Tom Craven, 30 years old;
  <bullet> Karen FitzPatrick, 18;
  <bullet> Jessica Johnson, 19;
  <bullet> and Devin Weaver, 21.

    Sadly, as subsequent investigations revealed, these young men and 
women did not have to die. In the words of the Forest Service's own 
report on the Thirtymile fire, the tragedy ``could have been 
prevented.'' At that time, I said that I believe we in Congress and 
management within the firefighting agencies have a responsibility to 
ensure that no preventable tragedy like Thirtymile fire ever happened 
again.
    Yet, I'm deeply saddened by the fact that it's clear we haven't 
done enough.
    In July 2003--two years after Thirtymile--two more firefighters 
perished, this time at the Cramer Fire within Idaho's Salmon-Challis 
National Forest. Jeff Allen and Shane Heath were killed when the fire 
burned over an area where they were attempting to construct a landing 
spot for firefighting helicopters.
    After the Thirtymile Fire, the Occupational Safety and Health 
Administration (OSHA) conducted an investigation and levied against the 
Forest Service fire citations for Serious and Willful violations of 
safety rules. It was eerie, when OSHA concluded its investigation of 
Cramer. The result: another five OSHA citations, for Serious, Willful 
and Repeat violations. Reading through the list of causal and 
contributing factors for Cramer and putting them next to those 
associated with the Thirtymile fire, I was struck by the many 
disturbing similarities. Even more haunting are the parallels between 
these lists and the factors cited in the investigation of 1994's South 
Canyon Fire on Storm King Mountain in Colorado. It's been ten years 
since those 14 firefighters lost their lives on Storm King Mountain--
and yet, the same mistakes are being made over and over again.
    These facts have also been documented by an audit and memorandum 
issued by the Department of Agriculture's Inspector General. The IG 
found that ``while there were many factors common to all three fires, 
the most important was a failure by [Forest Service] fire suppression 
personnel to establish fire safety rules and guidelines and to exercise 
acceptable supervision and judgment.'' The audit also stated 
``accidents on the South Canyon, Thirtymile, and Cramer Fires, all of 
which involved fatalities, could have been avoided if certain 
individuals had followed standard safety practices and procedures in 
place at the time.'' Lastly, the IG noted that the Forest Service ``has 
not timely implemented actions to improve its safety programs.''
    Despite these critical issues, how do you explain reductions in the 
USFS-preparedness budget?
    Answer. With the Forest Service FY 2006 preparedness budget, the 
agency is committed to maintaining firefighting readiness comparable to 
the FY 2005 level without sacrificing firefighter safety.
    Question 19. What specific steps are you taking to ensure that our 
wildland firefighters and those that manage them during firefighting, 
are getting the training and equipment they need as we head to another 
challenging fire season in my state and throughout the West?
    Answer. The Agency is continuing its commitment to provide wildland 
firefighters with adequate training and equipment to carry out their 
job. One of the areas in which the fire organization has been 
successful in expanding training is with the development of an 
extensive leadership training program.
    On October 1, 2004, the Agency implemented Interagency Fire Program 
Management (IFPM). IFPM is an extensive program that focuses on 
bringing the federal wildland fire organizations up to consistent 
professional standards, and increasing training and safety. For 
example, the program increases the competency of forest technicians, 
elevates key fire positions to professionalism, and requires University 
education credentials.
    Question 20. Can you clearly identify how much money will be spent 
on preparedness within each region of the Forest Service including 
within my State of Washington?
    Answer. 


    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Based on preliminary information, Preparedness funds would be 
distributed to the Regions as shown in the accompanying chart. The 
above chart does not reflect preparedness allocations associated with 
National Headquarters and other national costs, centralized business 
operations, and allocations to research station special projects.
    The State of Washington will receive about 21% of the Region 6's 
fire preparedness budget or about $17.5 million for the Gifford 
Pinchot, Mt. Baker-Snoqualmie, Olympic, Okanogan-Wenatchee and Colville 
National Forests.
                         thirtymile fire report
    Question 21. Mr. Rey, the USFS conducted an internal investigation 
following the Thirtymile fire. Unfortunately, much of that information 
was redacted when the report was released in May 2002. I believed then, 
and continue to believe, that the Forest Service over-reached--claiming 
``deliberative process privilege'' as the reason it won't release any 
more. Deliberative process privilege is what agencies claim when they 
want to reject FOIA requests. It is clear that it is within the 
agency's discretion to release a less redacted version of the report 
itself.
    Can you please explain your reasoning that this material, so 
important to the families of the four victims, has been redacted and is 
considered deliberative process privilege?
    Answer. There are many reports addressing the Thirtymile incident 
investigation that include a safety report, a manager's report and an 
administrative investigation report. It is somewhat unclear which 
report your question is referring to, however we believe the question 
refers to the administrative investigation report because the other 
reports were released unredacted.
    The investigation conducted by the Forest Service was undertaken in 
the context of possible disciplinary actions against Forest Service 
employees. Information within the investigation report was withheld 
pursuant to Exemptions 5 and 6 of the Freedom of Information Act. 
Exemption 5 protects the ability of an agency to investigate and be 
frank in its evaluation and analysis of the information discovered 
during the investigation. The Forest Service believes the release of 
this type of information would compromise the ability to provide candid 
evaluation and analysis in the future. Additionally, employees 
investigated are entitled to privacy under Exemption 6. Because there 
are possible administrative actions resulting from the outcome of the 
investigation and the agency analysis of the investigation, that the 
privacy interest is significant. The agency is obligated to protect 
that personal privacy.
   Responses of the Forest Service to Questions From Senator Salazar
                        land management planning
    I am concerned about the Administration's continued cuts to land 
management planning. The ongoing staffing shortages within the Forest 
Service prevent many National Forests from completing plan revisions. 
Staffing continues to decrease. The FY 2006 budget proposes a 30% 
reduction from FY 2005, or a cut of over 100 full time employees.
    As you know, in 2000 the Rocky Mountain Region published a notice 
of intent to amend five national forest management plans in Colorado 
and one in Wyoming to establish guidance for conservation of Canada 
lynx. Unfortunately, this effort (Southern Rockies Lynx Amendment) has 
been delayed and has no specific deadline. Yet the multi-agency Canada 
Lynx Conservation Assessment and Strategy, which was published in 2000, 
demonstrated the need for planning and guidance to protect lynx in 
Colorado's national Forests.
    Question 1. How will the cuts to land management planning in your 
Department affect staffing in Colorado? And how will those cuts affect 
completion of the Southern Rockies Lynx Amendment?
    Answer. It is uncertain how the budget will affect staffing in 
Colorado. The Rocky Mountain Region is not currently planning 
reductions in their planning staffs. However, the 2004 Planning Rule 
was developed in part to reduce the upfront costs of plan revision and 
shift more funds to monitoring and plan amendment. Were the lynx issue 
to arise today under the new planning rule the Forest Service would 
expect quicker incorporation of new science and new direction when 
needed for wildlife. The Rocky Mountain Region does expect the lynx 
amendments to be completed in FY 2006.
                            fire management
    The President's FY 2006 budget would cut the very resources that 
are most effective at preventing the loss of homes in the wildland-
urban interface (WUI) to wildfire. It seems that the only way to 
guarantee protection of homes in the WUI is to treat the immediate 
vicinity of those structures, and the structures themselves. Clearing 
the interior forest far from communities seems risky, as there is no 
predicting where the next lightening strike will be and a fire anywhere 
within two miles of a community can launch fire brands that shower an 
area with flaming debris, igniting anything they contact.
    Yet, the President's FY 2006 budget continues to cut resources that 
would facilitate protection of this state and local assistance.
    Question 2. Would you please explain the decision to cut this 
program further?
    Answer. Efforts to reduce hazardous fuel within and adjacent to 
communities at risk from wildland fire are aimed at improving the 
chances that suppression will be effective. Reducing the flammability 
of structures and treating private lands directly adjacent to homes is 
one extremely important step in improving the odds of survivability. 
Another important step is to make problem fire behavior rare or 
unlikely in the adjacent wildlands, and reducing the opportunity for 
problem fires to spread rapidly across the landscape. Reduction of 
hazardous fuel through thinning, cutting, burning and similar 
treatments is the best way to change expected fire behavior. These 
treatment efforts are not wasted in the forest interior, for they often 
meet multiple management objectives, reducing fuel while improving 
wildlife habitat, improving forest health or watershed values, 
restoring ecosystems, etc. While lightning ignitions are random, human 
caused starts from a variety of sources are somewhat less random, often 
associated with road access. Wildfire spotting potential is a concern, 
although spotting distance from a protection target like a community 
varies with the kind of trees and fuel in the adjacent forest, the 
slope and the position of the fire on that slope, and the wind speed 
and direction on the day of the fire. The funds available for the 
hazardous fuel reduction program are not being cut, but have actually 
shown an increase in past years and into FY 2006. Local variability in 
funds may be due to shifting priorities geographically.
                      energy resources development
    In the FY 2006 Park (should say Forest) Service budget 
justification, the USFS states that the agency will continue to 
emphasize leasing and development requests for oil, gas and geothermal 
energy with a ``particular emphasis'' (Sec. 7 pg. 59) on coalbed 
methane.
    Question 3. Will the USFS also emphasize and make available the 
resources necessary for adequate oversight of the field operations of 
this energy development?
    Answer. The Forest Service will continue to provide adequate 
oversight of field operations to ensure compliance with permit 
requirements and strive to protect the environment.
                          off highway vehicles
    Chief Bosworth, in your testimony you mentioned the increase in use 
of off-highway vehicles (OHV) within National Forests and the negative 
impact they are causing on resources. You stated that the Forest 
Service is currently finalizing a rule for managing OHVs that will 
require each National Forest to undertake travel management planning 
that will specify what trails/roads are for ORV use and which are off-
limits.
    Question 4. Why, then, is there is no money allocated in the 
President's budget for implementation of this critical rule?
    Answer. Better management of OHV use is one of the top priorities 
of the Forest Service and it is the agency's intent to accomplish this 
job within the funds available. A designated system of roads, trails, 
and areas will result in reduced environmental impacts, control over 
route proliferation, and a better and more sustainable experience for 
visitors.
    Within the next few years, the Forest Service intends to complete 
route designation as quickly as possible. This process will depend on 
local planning in an open, collaborative process coordinated with 
state, local, and tribal governments, and commitments from both the 
agency and the public.
    Question 5. If you are using funds from other accounts within the 
budget, how will the Forest Service account for its spending to 
implement this rule?
    Answer. The Forest Service intends to fund route designation 
locally according to the primary purposes served. This is consistent 
with past practice in travel management, and with the agency accounting 
structure. Travel planning includes multiple steps and serves multiple 
purposes involving management of National Forest System roads and 
trails. Bringing motor vehicles onto a designated system protects water 
quality and wildlife habitat in addition to serving recreation 
visitors. Forest plan inventory and monitoring may also be a component. 
Work activities associated with the Forest Service's strategic goal on 
Unmanaged Recreation, which includes implementation of the OHV rule, 
will be tracked in the Forest Service Work Planning system. That system 
will provide a sophisticated estimate of costs associated with 
attaining the strategic goal.
                  capital improvement and maintenance
    In your testimony Chief Bosworth, you stated that the backlog in 
deferred maintenance for deteriorating facilities continues to be a 
problem. You said that the budget proposes a new incentive-based 
approach to reduce the maintenance backlog for administrative sites and 
visitor centers. However, within the Budget Overview for the Forest 
Service (Sec. 9 pg. 1) it states that ``beginning in FY 2006, facility 
maintenance within the capital improvements program is limited to 
recreation sites.'' It goes on to say that maintenance of research, 
fire, administrative, visitor center, and all other facilities will be 
funded from a working capital fund (WCF).
    Question 6. How will you prioritize the maintenance that is 
necessary and the funds that will used for this purpose?
    Answer. Maintenance work that eliminates critical health and safety 
issues at administrative sites will be the highest priority use of 
these funds. Remaining funds will be used to eliminate maintenance 
issues that cause impairment of infrastructure function.
                        forest fees for visitors
    Chief Bosworth, you stated earlier that last year President Bush 
signed into law the Federal Lands Recreation Enhancement Act, which 
allows the Forest Service to charge modest fees at recreation sites 
which can be used to help maintain and improve the recreational 
experience of our visitors. You said, however, that the vast majority 
of recreation sites and services will continue to be free for most 
visitors (for activities such as horseback riding, walking, hiking, and 
general access to national forests and grasslands).
    Question 7. How will you determine what activities may not remain 
free to visitors?
    Answer. The Federal Lands Recreation Enhancement Act (FLREA) 
provides well-defined criteria that must be met before a federal land 
management agency can collect a recreation enhancement fee. The FLREA 
generally provides criteria based on amenities that include facilities 
and services for the majority of recreation enhancement fee sites and 
areas, not based on activities. The special recreation fee permit 
category authorizes the collection of fees for certain activities, such 
as issuing outfitting and guiding permits and motorized recreation 
vehicle use.
    The Forest Service in conjunction with the four other federal 
agencies (Bureau of Land Management, National Park Service, Fish & 
Wildlife Service, and Bureau of Reclamation) is developing policy and 
guidelines to implement the FLREA. Upon release of these guidelines 
this Spring 2005, all sites or areas that were previously charging 
recreation fees under fee demonstration authority will be evaluated for 
alignment with FLREA. Those sites not meeting the FLREA criteria will 
no longer have fees.

                                    

      

</pre></body></html>
